<html>
<title> - COMBATING THE BP OIL SPILL</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                       COMBATING THE BP OIL SPILL

=======================================================================


                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 27, 2010

                               __________

                           Serial No. 111-128


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
76-583                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                    COMMITTEE ON ENERGY AND COMMERCE

                 HENRY A. WAXMAN, California, Chairman
JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
CHARLES A. GONZALEZ, Texas           JOHN SULLIVAN, Oklahoma
JAY INSLEE, Washington               TIM MURPHY, Pennsylvania
TAMMY BALDWIN, Wisconsin             MICHAEL C. BURGESS, Texas
MIKE ROSS, Arkansas                  MARSHA BLACKBURN, Tennessee
ANTHONY D. WEINER, New York          PHIL GINGREY, Georgia
JIM MATHESON, Utah                   STEVE SCALISE, Louisiana
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa
PETER WELCH, Vermont
                 Subcommittee on Energy and Environment

               EDWARD J. MARKEY, Massachusetts, Chairman
MICHAEL F. DOYLE, Pennsylvania       RALPH M. HALL, Texas
JAY INSLEE, Washington               FRED UPTON, Michigan
G.K. BUTTERFIELD, North Carolina     ED WHITFIELD, Kentucky
CHARLIE MELANCON, Louisiana          JOHN SHIMKUS, Illinois
BARON HILL, Indiana                  JOHN B. SHADEGG, Arizona
DORIS O. MATSUI, California          STEVE BUYER, Indiana
JERRY McNERNEY, California           GREG WALDEN, Oregon
PETER WELCH, Vermont                 SUE WILKINS MYRICK, North Carolina
JOHN D. DINGELL, Michigan            JOHN SULLIVAN, Oklahoma
RICK BOUCHER, Virginia               MICHAEL C. BURGESS, Texas
FRANK PALLONE, Jr., New Jersey
ELIOT ENGEL, New York
GENE GREEN, Texas
LOIS CAPPS, California
JANE HARMAN, California
CHARLES A. GONZALEZ, Texas
TAMMY BALDWIN, Wisconsin
MIKE ROSS, Arkansas
JIM MATHESON, Utah
JOHN BARROW, Georgia

                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     3
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     4
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................     5
    Prepared statement...........................................     7
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................    13
Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, opening statement..................................    14
Hon. Jay Inslee, a Representative in Congress from the State of 
  Washington, opening statement..................................    15
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................    16
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................    16
Hon. Joseph R. Pitts, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................    17
Hon. Lois Capps, a Representative in Congress from the State of 
  California, opening statement..................................    18
Hon. Mary Bono Mack, a Representative in Congress from the State 
  of California, opening statement...............................    19
Hon. Jane Harman, a Representative in Congress from the State of 
  California, opening statement..................................    19
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................    20
Hon. Tammy Baldwin, a Representative in Congress from the State 
  of Wisconsin, opening statement................................    21
Hon. Steve Scalise, a Representative in Congress from the State 
  of Louisiana, opening statement................................    22
Hon. Charlie Melancon, a Representative in Congress from the 
  State of Louisiana, opening statement..........................    30

                               Witnesses

Jo-Ellen Darcy, Assistant Secretary of the Army (Civil Works); 
  accompanied by Terrence ``Rock'' Salt, Principal Deputy 
  Assistant Secretary of the Army................................    23
    Prepared statement...........................................    26
Lisa P. Jackson, Administrator, Environmental Protection Agency..    33
    Prepared statement...........................................    36
Larry Robinson, Assistant Secretary of Commerce for Oceans and 
  Atmosphere, NOAA...............................................    46
    Prepared statement...........................................    49
David J. Hayes, Deputy Secretary, Department of the Interior.....    67
    Prepared statement...........................................    59
Rear Admiral James Watson, Deputy, Unified Area Command, United 
  States Coast Guard.............................................    68
    Prepared statement...........................................    71
    Answers to submitted questions...............................   151

                           Submitted Material

BP interim report, dated May 24, 2010............................   101
Letter of May 24, 2010, from Mr. Burgess to United States Army 
  Corps of Engineers.............................................   149
Letter of May 26, 2010, from Mr. Burgess to the White House......   150


                       COMBATING THE BP OIL SPILL

                              ----------                              


                         THURSDAY, MAY 27, 2010

                  House of Representatives,
            Subcommittee on Energy and Environment,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:09 p.m., in 
Room 2123, Rayburn House Office Building, Hon. Edward J. Markey 
[chairman of the subcommittee] presiding.
    Present: Representatives Markey, Inslee, Butterfield, 
Melancon, McNerney, Dingell, Green, Capps, Harman, Baldwin, 
Matheson, Barrow, Waxman (ex officio), Upton, Stearns, Shimkus, 
Blunt, Pitts, Bono Mack, Sullivan, Burgess, Scalisle, Griffith, 
and Barton.
    Also Present: Representative Castor.
    Staff Present: Phil Barnett, Staff Director; Bruce Wolpe, 
Senior Advisor; Greg Dotson, Chief Counsel, Energy and 
Environment; Joel Beauvais, Counsel; Michal Freedhoff, Counsel; 
Melissa Cheatham, Professional Staff Member; Caitlin Haberman, 
Special Assistant; Meredith Fuchs, Chief Investigative Counsel; 
Karen Lightfoot, Communications Director, Senior Policy 
Advisor; Elizabeth Letter, Special Assistant; Jen Berenholz, 
Deputy Clerk; Mitchell Smiley, Special Assistant; Mary Neumayr, 
Minority Counsel; Aaron Cutler, Minority Counsel; Peter 
Spencer, Minority Professional Staff Member; Andrea Spring, 
Minority Professional Staff Member; and Garrett Golding, 
Minority Legislative Analyst.

OPENING STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. Good afternoon. It is day 38 of the BP oil 
spill disaster. Over these 38 days, BP has misled the public on 
the amount of oil spewing into the ocean. They waited until day 
23 to release a 30-second clip of the oil spill. They waited 
until day 31 to release a live feed of the spill. They 
continued to use dispersants that EPA has directed them to 
replace. And while we all hope that the top kill is successful, 
it is one of several untested strategies to address oil leaks 
at this depth, signaling BP's utter lack of preparedness.
    Through BP's obfuscation of the truth, the Federal 
Government has been working to determine the impacts of the 
spill and to mitigate the damage done to our environment, 
economy, and coastal communities. This is BP's spill, but it is 
America's ocean.
    After the initial explosion of the oil rig on April 20, the 
Coast Guard was first on the scene for a search and rescue 
operation that saved the lives of 115 workers. The 
administration immediately established a command center.
    A day after the explosion, the Coast Guard, EPA, and the 
Departments of Interior, Commerce, and Homeland Security joined 
State and local groups to coordinate resources and oversee BP's 
response.
    Within a week, Secretary Napolitano and Secretary Salazar 
signed on to an order for a joint investigation to determine 
the causes of this disaster.
    Homeland Security designated this event as a spill of 
national significance to fully leverage resources for the 
Federal Government's response.
    The Department of Commerce declared a fishery disaster in 
the Gulf to mobilize assistance to fishermen and fishing 
communities.
    NOAA has taken a lead role in evaluating the impacts of oil 
on marine resources and advising cleanup efforts.
    EPA has been monitoring air quality and has directed BP to 
use less toxic and more effective dispersants.
    However, in addition to the spill under the sea surface, we 
are also confronting the spillover from the Bush 
administration. This culture was established during the Bush 
administration when it compromised the Minerals Management 
Service, or MMS, responsible for offshore drilling oversight.
    On Tuesday, the Department of Interior released a report 
detailing how during the Bush administration MMS personnel 
routinely accepted expensive gifts from the very people they 
were supposed to be regulating. The Obama administration has 
responded with a plan to fundamentally restructure the MMS into 
separate entities for leasing, safety, and revenue collection, 
with independent missions to strengthen oversight of offshore 
energy operations. Any changes in MMS personnel will not change 
their dedication to effective oversight of our energy 
resources.
    Congress has also been working to determine the causes and 
consequences of this disaster, holding the companies involved 
accountable. BP, Halliburton, and Transocean have been 
questioned about the events leading to the accident. Chairman 
Waxman and Chairman Stupak are leading that investigation, and 
they will get to the bottom of what efforts were actually taken 
to stop the leak and attempts to clean up the mess.
    Ocean experts have testified to the effects of the oil on 
marine ecosystems. I sought and succeeded in making BP's live 
feed from the ocean floor available to the public, working with 
members of this committee.
    For years, the oil industry told us an oil spill was 
impossible. Then they said stopping the leak is mission 
impossible. It is clear that BP was unprepared for this.
    America is looking to the administration to provide 
oversight and to prevent this from ever happening again. There 
has been an impressive Federal response. To date, the Federal 
Government has deployed 1,300 vessels, over 1.85 million feet 
of containment boom, and directed 22,000 Federal employees to 
work on the BP oil spill.
    As this work continues, we must realize that we cannot 
drill our way to energy independence. We have 2 percent of the 
world's oil reserves, 5 percent of the world's population, and 
we consume 25 percent of the world's oil on a daily basis. The 
BP oil disaster is another reminder that we must move to a 
clean energy future, buoyed by increased fuel economy, wind, 
solar, hydropower, and efficiency and other technologies that 
can help us in the long run to avoid this ever happening again.
    Let me turn now and recognize the ranking member of the 
subcommittee, the gentleman from Michigan, Mr. Upton.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you, Mr. Chairman. I do appreciate you 
calling this hearing today.
    We are all outraged and saddened by the disastrous oil 
spill in the Gulf that left 11 dead and has spread untold 
barrels of oil into the sea. It is a very, very tragic event 
for our country. I would hope to see more hearings from this 
committee so that we can get answers and the companies 
involved--from both the administration as well as the companies 
involved about what happened, how we can fix it, and how we can 
ensure that a disaster like this cannot and does not happen 
again.
    It is not time for knee-jerk policy reactions but for 
answers. We must first determine what caused the accident and 
how we can prevent similar accidents from happening in the 
future.
    Second, we need to make sure, crystal clear to all 
involved, that the polluter will pay. The American taxpayers 
should not be on the hook for a dime for the cost of this 
accident.
    I was a member of the Conference Committee for the Oil 
Pollution Act of 1990. There is no doubt in my mind that the 
President and his administration have both the authority and 
the obligation to take control of the crisis. Clearly, from 
where we stand today, it has not happened.
    The spill from the Deepwater Horizon rig a month ago is the 
first major spill since enactment of the 1990 law. The Oil 
Pollution Act gives the President the authority to oversee the 
cleanup managed by the responsible party or federalize the 
efforts. It is the obligation of this committee and the 
Congress to scrutinize what procedures were taken by BP and the 
Obama administration and how these actions or inactions led to 
the mess that we see today. Hindsight is 20/20, but lessons can 
be learned and applied in the future.
    The Coast Guard has been charged with a Herculean task. 
However, I am concerned that the delays of the administration 
have set them up for failure. For example, it was 9 days after 
the accident before the administration tapped the Department of 
Defense to assist by deploying needed equipment to combat the 
spill site a mile underneath the water surface.
    I am also particularly interested in the Coast Guard's 
delay of initiating the controlled burn of the surface oil 
immediately after the spill occurred. It appears that there 
could have been a delay in using that tactic because of air 
pollution concerns.
    Was EPA involved in that decision or the delay? Did 
CO<INF>2</INF> or climate change concerns play a role in that 
decision?
    Additionally, why were chemical dispersants that make oil 
less harmful to the environment not fully used from the onset? 
Again, was this due to environmental concerns that may not have 
been warranted in that instance?
    Unfortunately, this is not the first safety or 
environmental problem that we have seen from BP. Clearly, they 
were not prepared to deal with a leak 5,000 feet below the sea. 
There is plenty of blame to go around, but as The Washington 
Post indicated this week, you cannot plug a well with 
regulation, speeches, or paper.
    There has not ever been a disaster like this in the 30 
years that they have been drilling in the deep water or the 
Gulf. After such a stellar safety record, you would start to 
think that things like this could not happen.
    While we can't turn our back on offshore drilling, we need 
to do a much better job and be prepared for the future. We need 
to do what we can to prevent this from ever happening again 
and, at the same time, be prepared for the worst. I look 
forward to the testimony and interaction.
    I yield back my time.
    Mr. Markey. The gentleman's time has expired.
    The chair recognizes the gentleman from full committee, the 
gentleman from California, Mr. Waxman.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Mr. Chairman, it is now 5 weeks since the 
Deepwater Horizon disaster; and each day brings more 
discouraging news of the devastating impact this oil spill is 
causing to the economy, to the environment, and the people of 
the Gulf Coast region. Each day we are learning more about the 
cascade of mistakes and misjudgments that caused this 
catastrophe.
    On Tuesday, May 25, committee staff received a briefing 
from BP officials, including the Group Vice President For 
Safety and Operations and the leader of BP's internal 
investigation. BP shared with the committee a 48-page document 
summarizing the company's interim incident investigation, and I 
ask that this document be made part of the hearing record.
    Mr. Markey. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Waxman. We learned a great deal from that presentation 
about BP's preliminary observations of possible causes of the 
blowout and explosion at the Deepwater Horizon drilling rig in 
the Gulf of Mexico. We summarized this in a memorandum that 
Chairman Stupak and I released on Tuesday.
    What we are now learning is that BP's investigation appears 
to omit key issues. There have been several reports today 
concerning questionable well design choices made by BP, 
including the decisions to use a type of casing that could 
allow gas to flow up the annular space to the wellhead to limit 
the number of spacers centering the casing, despite objections 
by Halliburton, and to curtail the length of time that drilling 
fluids were circulating to clean gas out of the well. Yet none 
of these issues were mentioned by BP when they briefed our 
staff. That raises the possibility that BP's internal 
investigation is not examining the consequences of BP's own 
decisions and conduct.
    Our investigation is examining all potential causes of the 
blowout, including the responsibility of BP. That is why we are 
sending a letter to BP today seeking more information on these 
issues.
    I want to thank Chairmen Markey and Stupak for their 
leadership in this investigation. The committee's first hearing 
was held by the Oversight and Investigations Subcommittee on 
May 12 where Chairman Stupak revealed new information about 
problems with the blowout preventer. Chairman Markey has led 
the way in Congress in investigating the amount of oil coming 
from the well and providing video feeds of the leak.
    Our next hearing will be a field hearing by the Oversight 
and Investigations Subcommittee in Chalmette, Louisiana, on 
Monday, June 7, 2010, at 10:00 a.m., where we will explore some 
of the impacts of this oil spill. We will continue a broad and 
aggressive investigation throughout the month of June.
    I pray that the efforts today will seal up this well and 
stop the damage that is being done. But that can't be the end 
of it. We have got to make sure that this kind of disaster 
never happens again and we know what went wrong so we can hold 
the proper parties responsible.
    Thank you, Mr. Chairman.
    Mr. Markey. The gentleman's time has expired.
    The chair recognizes the ranking member of the full 
committee, Mr. Barton from Texas.

   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. Thank you, Mr. Chairman; and I thank you and 
Chairman Waxman for asking our witnesses to come today and 
holding this hearing at this important time.
    As we speak, it is unclear whether the so-called top kill 
procedure has been successful, but it does appear that it has 
been at least partially successful, and hopefully we will know 
by the end of the day that it has been totally successful.
    No one can bring back the 11 individuals who lost their 
lives on the drilling rig back in April. We can't put the oil 
that has been spilled back into the reservoir, but perhaps, if 
we work together, we can find out what caused the problem, what 
can be done to fix the problem right now, and what can be done 
to prevent it in the future.
    I am disappointed with the President's decision today to 
stop drilling in the deep Gulf and in Alaska. I think putting 
our drilling programs in those areas in a deep freeze is 
exactly the wrong approach. All we are going to do is cause 
unemployment and cause the price of oil to go up, which is 
going to hurt our economy even more, and we are already hurting 
with almost 10 percent unemployment. So I think that the 
President has made a decision that will come back to hurt this 
country.
    I want to make one thing perfectly clear, Mr. Chairman. 
Under current law, the President is in charge of this cleanup. 
This accident occurred in the Federal waters in the Gulf of 
Mexico outside the State limits. We have a law that makes the 
President in charge from day one.
    I do think the President made the right decision to put 
British Petroleum in charge of day-to-day decision making under 
the supervision of the Coast Guard, the EPA, the MMS, and other 
Federal agencies. It is BP's responsibility. They are the 
primary owners of the well, and I don't second-guess that 
decision at all.
    But, make no mistake, there has not been one decision that 
I am aware of, unless some of the panelists tell us so today, 
that BP or Halliburton, Transocean or Cameron has made that 
wasn't acknowledged by Federal officials and wasn't approved by 
Federal officials.
    And, again, it is real easy to sit up here on the podium, 
Mr. Chairman, and second-guess. I went down to Louisiana with 
you and others of this committee and went to the command site 
and then went out and overflew the accident site. It is tough 
to be there and have to make decisions on what to do when there 
is no easy, obvious answer. So I don't think it is fair to 
second-guess some of the decisions that have been made.
    But I think it is fair, if you are going to try to pin the 
blame on somebody, as President Truman said, ``The buck stops 
here.'' And under current Federal law, the President of the 
United States is ultimately in charge.
    It is not BP that has not given the OK to build the berms 
down in the State of Louisiana that the Corps of Engineers 
until today had been sitting on for a month. That was not a BP 
decision.
    It is not a BP decision to be using one dispersant and then 
be told by the EPA to use another and then be told again to go 
back and use the other dispersant. In fact, while it was a BP 
recommendation to use dispersants to try to keep the oil under 
the surface, that in itself I understand could be a 
controversial decision. That was a decision that was ultimately 
approved by the Environmental Protection Agency.
    I think, Mr. Chairman, that this committee, under the 
leadership of Mr. Stupak and yourself and Mr. Waxman, with the 
help from Dr. Burgess and Mr. Upton and myself, have conducted 
a fair investigation.
    My position on this is pretty straightforward. Let's stop 
the spill, and hopefully today we will accomplish that. Let's 
soon clean up the damage. And I know everybody is trying to do 
that. Let's conduct a fair, fact-based investigation and, based 
on that, decide what policies need to be changed, what best 
practice procedures need to be changed to prevent a situation 
like this from happening in the future.
    If we do that, Mr. Chairman, while this, again, is a tragic 
accident, 11 people have lost their lives, hundreds of 
thousands of barrels of oil have been spilled into the Gulf, 
our ecology has been impacted, our economy has been impacted, 
if we learn from this, though, we can hopefully prevent it from 
happening in the future.
    And, with that, Mr. Chairman, I yield back.
    [The prepared statement of Mr. Barton follows:]


    [GRAPHIC] [TIFF OMITTED] 76583A.001
    
    [GRAPHIC] [TIFF OMITTED] 76583A.002
    
    [GRAPHIC] [TIFF OMITTED] 76583A.003
    
    [GRAPHIC] [TIFF OMITTED] 76583A.004
    
    [GRAPHIC] [TIFF OMITTED] 76583A.005
    
    [GRAPHIC] [TIFF OMITTED] 76583A.006
    
    Mr. Butterfield [presiding]. Thank you, Mr. Barton.
    At this time, the chair recognizes the chairman emeritus of 
the committee, Mr. Dingell.

OPENING STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Mr. Chairman, thank you; and thank you for 
holding this important hearing today.
    The Oversight and Investigations Subcommittee held a 
hearing a couple of weeks ago where we heard from BP, 
Transocean, Halliburton, and Cameron. Today, we have the 
administration officials. Mr. Chairman, I commend you for 
having the administration officials here today. Their testimony 
and their answers to questions are equally critical in terms of 
finding out what went wrong and why and what to do about it.
    To our witnesses, thank you for being here today.
    Mr. Chairman, as I have mentioned in previous hearings, I 
have been a supporter of offshore oil and drilling; and I must 
say that the oil companies are making this support increasingly 
difficult. I have tried to support this when it was right and 
in compliance with our environmental laws and hoped that it was 
for many years.
    I come from Michigan, and we are a manufacturing State, and 
domestic manufacturers need domestic energy sources. Domestic 
oil and gas drilling is as much a part of a comprehensive 
energy policy as anything else and can reduce our dependence on 
foreign energy sources and increase our manufacturing 
competitiveness.
    On the other side of that, Mr. Chairman, I am an avid 
conservationist. I wrote many of our cornerstone environmental 
laws. That includes the National Environmental Policy Act, the 
Endangered Species Act, and the Marine Mammal Protection Act. 
These laws are a little like my children. I protected them for 
years and intend to do so as long as I am able. I have observed 
that they do not appear to have been properly enforced by the 
administration, nor do I see that they have been properly 
carried out by the oil companies.
    Balancing these views is challenging. Today, I am forced to 
come to a difficult conclusion. We need to establish a complete 
moratorium on all leasing and all drilling activities until it 
is established that all of it is done and is being done in full 
compliance with the environmental laws and with full attention 
to safety and to avoiding the kind of disastrous spills that we 
are seeing going down in the Gulf. And so full compliance with 
the environmental laws has to be the responsibility of the oil 
companies but also of the administration; and I refer very 
specifically to NEPA, which appears to have been significantly 
disregarded, and the Marine Mammal Protection Act.
    I don't believe that new regulation is necessary at this 
time. Quite frankly, because we have our current environmental 
laws in place for a long time, it is my belief that if they had 
been properly followed we would probably not be in the mess in 
which we currently now find ourselves.
    And the fact is that NEPA and the Marine Mammal Protection 
Act are good laws that work when properly enforced, but they 
were set aside for BP Deepwater Horizon in behavior that is 
unacceptable by our government.
    I am extremely dismayed, disappointed, and just plain angry 
about the process or lack thereof used by the Minerals 
Management Service. Drilling at any cost seems to be the modus 
operandi. Cash bonuses have been handed out for meeting 
deadlines for offshore leasing. Broad exemptions from 
environmental laws have been made, including in the case of 
Deepwater Horizon, and scientists have been ignored.
    After everything we have learned over the years about BP, I 
might expect this kind of behavior from them but not from the 
Federal Government. I would note we have from time to time seen 
BP before this committee and its investigative committees to 
talk about the failure in terms of wells on pipelines, major 
spills and explosions; and always we were promised that BP 
would do better. They have not.
    I do appreciate and do commend the administration's efforts 
to reform the way we do oil and gas leasing, but I am not sure 
that is enough. Very frankly, we need a timeout. We need to be 
taking stock of what is wrong with the system, what we are not 
doing right, what we can do better, how we didn't comply with 
the laws, and how we are going to make sure that our laws are 
being complied with. The stakes are too high to do otherwise.
    I yield back the balance of my time.
    Mr. Butterfield. I thank the gentleman.
    The chair recognizes the gentleman from Florida, Mr. 
Stearns.

 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Stearns. Mr. Chairman, thank you.
    I regret that Mr. Markey, the chairman of the subcommittee, 
is not here. I would like to answer his opening statement where 
he said the Bush administration is at fault for this. I think 
that is, obviously, a stretch.
    If you read any of the air pollution act, which I am going 
to read to you, the Clean Water Act section 311(c)(1)(A), the 
President shall ensure effective and immediate removal of a 
discharge and mitigation or prevention of a substantial threat 
of discharge of oil or a hazardous substance.
    So the President is involved here. He is responsible. If 
there is any problem, it is he and the U.S. Coast Guard who 
report to him.
    Now, Mr. Markey went on to say there was an impressive 
Federal response. Well, it is not enough. And, in fact, even as 
we speak here this afternoon, officials in Louisiana are still 
waiting--still waiting for the Federal Government to provide 
millions of feet in boom to approve an emergency permit to 
fully--not partially--implement their plan to dredge and build 
a new barrier island to prevent even more oil from reaching 
their marshes and wetlands.
    Mr. Chairman, Saudi Arabia had an oil spill in the Gulf. It 
was many, many times this; and they used their ships and barges 
to vacuum up the spill. In fact, there are many countries 
around the world who have volunteered with the State 
Department, including Canada, France, Germany, and others, the 
United Kingdom, to help with the idea of providing technical 
expertise, booms, chemical dispersants, oil pumps, skimmers, 
and wildlife treatment; and none of that has been accepted by 
this administration. The vast majority of assistance has not 
been utilized.
    The blunt fact is, the administration is on the watch. It 
is their responsibility. Everybody knew that the Minerals 
Management Service was not effective. There were so many 
inspectors' reports about this. It should have been reformed, 
and it should have been done on the President's watch, and 
certainly he has responsibility for this.
    Mr. Butterfield. Thank you.
    At this time, the chair will recognize the gentleman from 
the State of Washington, Mr. Inslee.

   OPENING STATEMENT OF HON. JAY INSLEE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Inslee. Thank you.
    Well, I am shocked that the Republicans are blaming this 
disaster on Barack Obama. It is shocking to me that that could 
happen. And I guess maybe I shouldn't be shocked, but I am.
    It is sort of like H. Rap Brown, who I think coined the 
phrase ``burn baby burn.'' He didn't blame the government for 
the arson; and those who pushed the ``drill baby drill'' 
positions as the solution to our energy woes, it seems to me, 
ought not to be blaming the government for this particular 
tragedy.
    There are legitimate issues about everyone's performance, 
and it is appropriate to look at everyone's performance. But it 
wasn't Barack Obama's decision not to use 20 centralizers on 
the rig which, in fact, the BP people thought should be used 
and only used six. So that they didn't have any centralizers. 
Centralizers are the things that keep the pipe centered in the 
well board so you don't get voids in the cement. And the BP 
staff said, well, you should use 20. Well, somebody delivered 
the wrong ones to them, so they only used six, and they didn't 
have any in the cement area above the hydrocarbon area. That 
wasn't Barack Obama's decision.
    It wasn't Barack Obama's decision to use a casing system 
that created higher risks of a blowout in order to save some 
dollars. That was British Petroleum's decision.
    It wasn't Barack Obama's decision to have a dead battery in 
the blowout provider. It was someone, either BP or one of the 
other subcontractors, had and didn't tighten up the valve so 
you had a hydraulic leak.
    So I think we are going to find we need to have, yes, 
greater oversight over this industry. But I will tell you, 
Lamar McKay, who was just down at our Natural Resources 
Committee, looked a little sheepish trying to explain why 
British Petroleum didn't use the centralizers that they thought 
they should use. And he wasn't blaming it on Barack Obama.
    So I think it would be helpful to really focus on what 
really happened here, and I look forward to the testimony.
    And, by the way, just one comment. Administrator Jackson, 
we are not going to let people take away your authority to 
prevent all the invisible oil spills that are going on from 
carbon dioxide making our oceans acidic either. We are going to 
keep that authority.
    Thank you.
    Mr. Butterfield. I thank the gentleman.
    Mr. Shimkus from Illinois.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Now, Mr. Inslee, I was telling Administrator 
Jackson how nice I was going to be today; and you go rile me 
up. Because we could go into the climate debate, which I don't 
want to do. But I do want to talk about the impending issues. 
So we are pleased to have you all here.
    I will direct some questions on the dispersant issue and 
just getting clarification. A lot of us have been informed now. 
We are trying to gather information. And I will talk about the 
type being used, how it is certified, questions made that it is 
not good and then the need for it. And I will go in that 
direction.
    I think there is some valid concern about, when we have an 
emergency--responding in an emergency situation, the marshes 
are being polluted, we do have some delay from the locals who 
want to protect their marshes by the permitting process. I 
think we should be able to expedite that.
    And I think there will be some emotions on all sides. These 
locals want to do all they can, and there is some delay on the 
local elected officials and their ability to do everything they 
want to do.
    But we are all in this together. This is a huge 
undertaking. No one is happy about it.
    I am a ``drill baby drill,'' and I still believe that is 
important to our national energy security. Three thousand 
drilling operations in the Gulf. Katrina went by, no effect. We 
just can't be Pollyannish about our energy needs. I am one that 
will also continue to talk about our energy security and 
national security needs.
    Thank you all for coming. I yield back, Mr. Chairman.
    Mr. Butterfield. Thank you Mr. Shimkus.
    The chair recognizes the gentleman from Texas, Mr. Green.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman, for holding the 
hearing.
    The Gulf of Mexico is in the midst of an incident that is a 
tragedy we have never seen, and my thoughts and prayers go out 
to the families and communities affected by this terrible 
incident.
    I appreciate the administration being here to answer our 
questions. I know your colleagues are diligently working to 
stop that leak.
    While I agree that we should look at how effective our 
government response has been, certainly look at the adequacy of 
BP's response plans, I believe that our efforts should focus at 
this time mainly on plugging the well instead of casting blame.
    We are certain to continue hearings on this issue for 
months to come. There is no doubt the eventual lessons learned 
from Deepwater Horizon spill will impact on how our offshore 
resources are obtained. The industry should provide an accurate 
response plan for every rig; and, conversely, MMS should have 
adequate oversight to ensure that these response plans are 
adequate.
    Having said that, I want to caution my colleagues against 
rushing through any legislative proposal that adversely affects 
our ability to develop domestic resources, for example, 
automatically raising the liability cap to $10 billion when 
maybe a BP or a major company could afford that, but so much of 
the Gulf of Mexico is produced by independents who don't have 
the capitalization of the majors.
    These proposals should be thoroughly vetted by the 
committees of jurisdiction. Our energy resources are vital to 
our national security, economic growth of our country; and our 
country requires a safe and effective and steady development of 
its offshore oil and gas resources.
    I have been on this committee since 1997, and I remember 
about 3 years ago we were all lamenting $4 a gallon gas. If we 
continue the prohibition against deep water or even shallow 
water production, you can guarantee it that we will be back to 
$4 a gallon gas, and we won't be able to blame Saudi Arabia for 
it.
    Thank you for the work you are doing, Mr. Chairman. I yield 
back my time.
    Mr. Butterfield. Thank you, Mr. Green.
    The gentleman from Pennsylvania, Mr. Pitts.

OPENING STATEMENT OF HON. JOSEPH R. PITTS, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Ms. Pitts. Thank you, Mr. Chairman. Thank you for holding 
this hearing.
    I want to begin my comments today also by expressing my 
deepest regrets to the family members and friends who have lost 
their loved ones.
    This is a tragic event. Not only have lives been lost but 
an unknown amount of oil has been leaked into the ocean, 
causing great damage and horrible effects, some of which we 
know now and some of which will take years to discover.
    In the wake of this event, questions regarding the cause of 
the explosion and leak have naturally arisen, along with 
questions on the appropriateness of the response from BP and 
the administration. Particularly, I am eager to hear from our 
witnesses today regarding whether or not sufficient response 
plans were put to work in order before the incident occurred 
and, if they were, whether or not they are currently working.
    It seems to me that the Federal response has been not only 
disjointed but confusing and frustrating for those on the 
ground trying to bring relief. A prime example would be the 
EPA's convoluted instructions regarding the use of dispersants.
    In addition, Louisiana Governor Bobby Jindal said on Monday 
that, quote, we have been frustrated with the disjointed effort 
to date that has too often meant too little, too late for the 
oil hitting our coast, end quote. This is incredibly 
disappointing.
    As I have said, this is a tragic event. We need to make 
sure due diligence is done in investigating the causes and the 
appropriateness of the response in the aftermath. However, we 
need to make sure the response of this body and the 
administration is prudent, one that still encourages our 
country's energy security and independence.
    I look forward to hearing from our witnesses today.
    I yield back.
    Mr. Butterfield. I thank the gentleman.
    The gentlelady from California, Mrs. Capps.

   OPENING STATEMENT OF HON. LOIS CAPPS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Capps. Thank you, Mr. Chairman, and welcome to our 
witnesses. Thank you for your testimonies in advance.
    Thirty-eight days after BP's Deepwater Horizon rig exploded 
and killed 11 workers, 15 to 40 million gallons of toxic crude 
oil have spilled into the Gulf of Mexico. The oil from the 
slick now equals the size of South Carolina, has soiled more 
than 100 miles of Louisiana's coastline. Fishermen working on 
the cleanup have become ill after working long hours near 
waters fouled with oil and dispersants, reporting nausea, 
dizziness, headaches, and chest pains. It has gotten so bad 
that yesterday the unified command recalled the vessels 
operating in Breton Sound after crew members reported health 
problems.
    Today I, along with Health Subcommittee Chairman Pallone, 
wrote to BP, urging the company to take the necessary steps 
that it apparently is not now doing to ensure the health and 
safety of the workers and volunteers who are cleaning up this 
giant mess.
    Quite frankly, it is an outrage that this company, which 
made $16 billion in profits last year, has such a terrible 
record on safety for the drilling itself and for the workers 
who are trying to clean up the mess; and that is why it is so 
important that the Federal Government is bringing every 
resource necessary to put a stop to this catastrophe.
    Last week, the President established an independent 
commission which was modeled on legislation I introduced with 
Chairman Markey to investigate the cause, the response, and the 
impact of BP's spill. Earlier today, he announced tougher 
safety requirements for offshore drilling and a stronger 
inspections regime; and he took steps to ban new deep water 
wells for 6 months, cancelled exploratory drilling in Alaska, 
and cancelled a proposed lease sale off of Virginia's coast.
    Mr. Chairman, this whole tragedy brings into stark relief 
what many of us have been saying for years and which the 
chairman, in his opening remarks, said as well. We need to end 
our addiction to fossil fuels. My only hope now is that perhaps 
there is some measure of good that can come out of the 
sickening sights of toxic sludge in Louisiana's wetlands, the 
oil slick on the open ocean, the underwater toxic plumes that 
continue to kill marine life, wildlife, and birds at an 
alarming clip. Finally freeing ourselves from this costly 
addiction would be a fitting tribute to the terrible tragedy 
being borne by the people of Louisiana and the Gulf.
    I yield back my time.
    Mr. Butterfield. Thank you, Mrs. Capps.
    The chair recognizes the gentlelady from California, Mrs. 
Bono Mack.

 OPENING STATEMENT OF HON. MARY BONO MACK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Bono Mack. Mr. Chairman, I would like to begin by also 
sending my condolences to the families of the 11 brave men who 
lost their lives as a result of this tragic accident.
    I also appreciate very much the time of our witnesses to be 
here with us today to discuss the issues related to the massive 
spill off of Louisiana's coast.
    I know that today's hearing will delve into the details of 
who knew what and when they knew it, which we must examine, yet 
we seem to be spending so much time pointing fingers and 
playing politics, which is exactly what has the American people 
frustrated beyond belief.
    What we have in front of us is a disaster that has extreme 
environmental and economic effects. Millions of Gulf Coast 
residents wake up every morning knowing that they are providing 
the food on our plates and the gasoline to power our vehicles. 
Yet I am extremely frustrated to see both BP and politicians, 
plus, truthfully, this entire town, continue to point fingers 
and play a game of gotcha instead of collaboratively and 
aggressively seeking solutions and taking action.
    We cannot afford more bureaucratic barriers to addressing 
the need to cap the well as well as lessen the spill's effects. 
The excuses have been many, and the press excuses even more 
numerous. But today we need to get clear answers about the 
levels of preparation for the deep water drilling taking place 
in this region and the clear path forward for cleanup 
operations of this epic disaster. The fact is, wasting time, 
playing politics, and placing blame on past actions when 
confronted with this national emergency is, frankly, insulting 
to the hardworking people of the Gulf region.
    With that, Mr. Chairman, again, I thank our witnesses; and 
I yield back the balance of my time. I look forward to the 
testimony out of our panel. Thank you.
    Mr. Butterfield. I thank the gentlelady.
    We will now recognize another gentlelady from California, 
the third in a row, Ms. Harman.
    Ms. Harman. Thank you, Mr. Chairman. We plan to take this 
committee over very soon.
    Mr. Butterfield. Please don't ask unanimous consent for 
that.

  OPENING STATEMENT OF HON. JANE HARMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Harman. No, I was just stating our intention.
    As Chairman Markey said in his opening remarks, quote, this 
is BP's spill, but it is America's ocean.
    That ocean touches my district, which hugs almost 20 miles 
of California coastline. I have always opposed drilling off the 
coast of California and have cast 20 votes--more than 20 votes 
against offshore drilling over my eight terms in Congress, 
including a vote against the 2006 Deep Ocean Energy Resources 
Act.
    Further, I am an original cosponsor of the Garamendi bill 
that seeks to ban all drilling off the entire west coast.
    The events of the last month have only reinforced my 
opposition. Like millions of Americans, I have watched the days 
mount and the strategies fail. The crude oil gushing from BP's 
blown well is now threatening Florida's Atlantic coast and when 
it gets into the Gulf stream could potentially spread thousands 
of miles.
    There is a Washington lesson and a national lesson here. 
For the Washington lesson, we have to dramatically ramp up 
government oversight of drilling activities and end the 
sweetheart relationship between MMS and industry. President 
Obama was right to force the resignation earlier today of the 
MMS director, who obviously is not before us now. And he and 
Secretary Salazar and everyone on today's panel all must do 
more, as we must.
    The national lesson is that America's insatiable thirst for 
oil must be stemmed. It is dirty, poses major environmental 
risks, and when we buy it from abroad, it enriches our enemies. 
We must seize this moment to end our crippling dependence on 
oil. Enough is more than enough.
    I yield back.
    Mr. Butterfield. Thank you.
    I believe Dr. Burgess is next.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. Thank you, Mr. Chairman.
    We have heard a number of things today. We are going to 
hear a number of things from our witnesses, and I am anxious to 
do so.
    Again, I will just reiterate some of the questions that 
came up in earlier hearings that we have had. Particularly I am 
glad we do have a representative from the Minerals Management 
Service.
    The application that was submitted for the Deepwater 
Horizon drilling permit in March of 2009 raises some serious 
issues.
    A section 2.7 blowout scenario, a scenario for a potential 
blowout of the well from which BP would expect to have the 
highest volume of liquid hydrocarbons, is not required for the 
operations proposed in this exploration plan.
    Section 2.3, BP Exploration Production, Inc. does not 
propose to utilize new techniques or unusual technologies for 
these operations or drilling in 5,000 feet of water, going down 
18,000 feet. That does sound new and unusual to me.
    Section 14.2, in the event of an unanticipated blowout 
resulting in an oil spill, it is unlikely to have an impact 
based on industry-wide standards for using proven equipment and 
technology for such responses.
    Implementation of BP's regional oil spill response plan, 
which address available equipment and personnel techniques and 
recovery and removal of the oil spill.
    Why was this application--I mean, shame on BP, shame on BP 
for submitting an application that was so scant on details. But 
why was an application like this ever accepted in the first 
place?
    And we have heard other people in their opening statements 
make comments about folks around the country that are concerned 
about this and want to help. I did two town halls on Saturday, 
town halls in north Texas. A fellow brought in this contraption 
and showed it to me. That is basically a coke bottle that has 
been cut in half. He has got this thing filled with what looked 
like sawdust, but it was some sort of polypropylene material 
that he has. And, apparently, it has another Federal use, so it 
is something that has already been approved by the EPA.
    He poured a bottle of gunk like Ed Markey had in here the 
other day, poured the bottle of gunk in the top, and you could 
see down in the bottom of the mayonnaise jar--his equipment was 
not very sophisticated--it looks like clear water is coming 
out.
    This individual had been trying to get some recognition of 
his technique. There are people like this all over the country 
that are willing to help. They want to help clean up their 
coastline. Governor Jindal wants to help the coastline, and he 
has been prevented by the Corps of Engineers and the 
Environmental Protection Agency. It is time to relax those 
standards and give him the authority that he needs to do what 
needs to be done.
    I will yield back.
    Mr. Butterfield. I thank the gentleman.
    At this time, the chair recognizes the gentlelady from 
Wisconsin, Ms. Baldwin.

 OPENING STATEMENT OF HON. TAMMY BALDWIN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF WISCONSIN

    Ms. Baldwin. Thank you, Mr. Chairman.
    I just came from a hearing at the Judiciary Committee on 
the BP oil spill and liability issues where we heard from Keith 
Jones, the father of one of the men who lost his life. We also 
heard from two survivors from the explosion. And I daresay 
there wasn't a dry eye in the audience as the three of them 
testified.
    Like so many of my colleagues and my fellow Wisconsinites 
and all Americans, I am really angry about the oil spill in the 
Gulf of Mexico and sad and angry about the loss of life. I am 
horrified by the negligence and the conflicts of interest that 
have been revealed and exhibited leading up to this tragedy, 
and I am furious that for over a month oil has been spewing 
into the Gulf of Mexico, endangering lives and livelihoods and 
our precious ecosystem with no end in sight.
    There are several aspects of this crisis that are 
particularly troublesome: the conflicts of interests at the 
Minerals Management Service, which allowed the agency to 
oversee the safety of offshore drilling while simultaneously 
collecting royalties from the companies they were overseeing, 
and this is unacceptable. We have heard the reports of staff 
members of the agency repeatedly accepting tickets to events 
and lunches and other gifts from industry.
    Equally disturbing is that BP has used unprecedented 
volumes of chemical dispersants to break up the oil offshore 
that we now learn could further imperil the mammals and fish 
and birds and turtles that inhabit the Gulf region. And despite 
EPA belatedly telling BP to limit use of this product, the 
company has continued to do so.
    The situation in the Gulf appears to be one of a company 
continuously believing that it is above the law, ignoring 
warning signs, shortcutting proper procedure, failing to 
properly plan for a disaster, and putting profits over other 
considerations.
    Mr. Chairman, this spill is a tragic reminder that we must 
rethink our Nation's energy policy and move toward a post-
petroleum economy.
    I thank our witnesses, and I yield back the balance of my 
time.
    Mr. Butterfield. I thank the gentlelady.
    The gentleman from Louisiana, Mr. Scalise.
    Mr. Scalise. Thank you, Mr. Chairman.
    I would like to ask unanimous consent to submit this into 
the record. It is a statement from the U.S. Travel Association 
about combating the BP oil spill.
    Mr. Butterfield. Without objection.
    [The information was unavailable at the time of printing.]

 OPENING STATEMENT OF HON. STEVE SCALISE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Scalise. Thank you.
    Yesterday, we paid respects to the 11 men who lost their 
lives in the explosion of the rig, and our prayers go out to 
them and their families. And I know some of the families are 
here today. I hope to have the opportunity to meet with them.
    I hope the top kill is successful today, and we may not 
know that for a few days, but we can't forget that more than a 
month's worth of oil has already spilled into the Gulf and is 
moving its way into our marshes, and that is something we are 
going to have to be working for a long time to clean up that 
mess.
    But today the President held a press conference where he 
said that he has been in charge from day one, and I have just 
got to disagree. If this has been his top priority, if he has 
been in charge from day one, then why is it that it took more 
than 16 days to get an answer from our Governor and our local 
officials who submitted a plan to protect the marsh from the 
oil?
    They submitted this plan more than 2 weeks ago before any 
oil was in the marsh. It sat on bureaucratic desks, didn't go 
anywhere. If all hands were on deck, the President would have 
rolled up his sleeves day one when the Governor submitted that 
plan and say, we are going to figure out a way to get this done 
and to give you the Federal permit, so y'all can go and protect 
your marsh.
    It didn't happen. It didn't happen for over 2 weeks, and 
now we are hearing from the Governor's office that the plan 
that might have been approved today only covers about 2 percent 
of the Governor's plan. That is just not acceptable. We are 
trying to protect our marsh right now; and if the President has 
got a better plan, put it on the table. But we haven't seen 
them come up with any plan to protect our marsh. We have put 
one on the table for over 2 weeks, and nothing from the 
President. That is inexcusable.
    If all hands were on deck, then why is it that on Sunday--
on Sunday as oil was coming into our marsh in Grand Isle I 
heard reports from officials who said the boom-laying beats 
were sitting at the dock. They weren't putting out boom. They 
were sitting at the dock instead of putting out the boom as oil 
is coming into our marsh.
    That is not all hands on deck. That is not a top priority 
of the President. If he is in charge, as the law says that he 
should be under the Oil Pollution Act, that should have never 
happened.
    So I am glad that today he acknowledged that some mistakes 
were made, but we don't have time for the mistakes and the 
excuses. We need action. And when he comes down tomorrow--and I 
know he won't share with our delegation where he is going or 
what he is doing, but I hope he meets with those local 
officials, and I hope he finally solves these problems instead 
of all of the red tape and all of the excuses that we are 
getting.
    Thank you, and I yield back.
    Mr. Butterfield. Thank you, Mr. Scalise.
    Before proceeding, it has come to my attention that one of 
our scheduled witnesses, Ms. Jo-Ellen Darcy, is going to have 
to leave at 1500, 3:00 this afternoon. So we are going to allow 
you to be excused in just a moment. But thank you very much for 
your willingness to come.
    I am told that your deputy, Mr. Terrence ``Rock'' Salt, 
will be available to answer any questions. But we thank you for 
your service. We thank you for your willingness to come today.
    I will say for the record that Ms. Darcy is the Assistant 
Secretary of the Army for Civil Works, a position that 
supervises the Army Corps of Engineers' Civil Works Program. 
The Army Corps of Engineers is an environmental preservation 
and restoration agency that regulates activities in the 
Nation's wetlands. That is a very honorable position, and we 
thank you for all that you do.
    All right. Without objection, we might go ahead and 
recognize you for your 5 minutes. I am told that that may be in 
order. Let me consult with the ranking member just a moment.
    Mr. Upton. I just wanted to ask, too, for all members, we 
ask unanimous consent that their opening statements might be 
put into the record at this point, too.
    Mr. Butterfield. Without objection.
    Do you consent to the witnesses' testimony being given at 
this time?
    The witness is recognized for 5 minutes.

STATEMENT OF THE HONORABLE JO-ELLEN DARCY, ASSISTANT SECRETARY 
  OF THE ARMY (CIVIL WORKS), ACCOMPANIED BY TERRENCE ``ROCK'' 
     SALT, PRINCIPAL DEPUTY ASSISTANT SECRETARY OF THE ARMY

    Ms. Darcy. Thank you Congressman Butterfield, and I want to 
thank all members of the subcommittee for inviting me here 
today.
    My name is Jo-Ellen Darcy. I am the Assistant Secretary of 
the Army for Civil Works; and I am joined by ``Rock'' Salt who 
is my Principal Deputy, who will come up here when I finish 
delivering this testimony.
    And I ask that my written statement be submitted for the 
record in full, because I will summarize here for you.
    In the midst of the response to the tragic Deepwater 
Horizon oil spill, the Corps of Engineers continues to provide 
reliable navigation on the river systems and waterways along 
the Gulf Coast as it maintains vigilant monitoring and 
assessment of the oil impacts.
    In addition, the Corps has provided modeling support for 
river discharges and is offering emergency review under section 
404 and section 10 authorities of a proposed barrier plan 
developed at the local level intended to prevent the oil from 
reaching the coastal wetlands.
    The Corps has also reviewed and provided input to an 
interim EPA region six oil solidifier policy and supports its 
implementation.
    Currently, the oil spill is not affecting dredging 
operations or navigation in any rivers or waterways along the 
Gulf. There have been no incidents of deep draft vessels 
getting oil on their hulls as they approach the southwest pass 
on the Mississippi River.
    The U.S. Coast Guard, working with navigation interests, 
has established cleaning stations in the lower Mississippi 
River to clean those vessels before they proceed up the river 
to the New Orleans district as well as similarly this was done 
after the 2009 Mississippi River oil spill.
    The Corps continues daily monitoring of any impacts to 
navigation and dredging operations as a result of the oil spill 
and maintains continued coordination with navigation interests 
and appropriate agencies.
    The Corps has analyzed a number of water management 
conditions and possible actions to determine whether we could 
modify river flows to keep oil away from the mouth of the 
Mississippi River and wetlands on either side of the river. 
This analysis included possible deviations from the statutory 
70/30 split at the Old River Control Structure between the 
Mississippi River and the Atchafalaya Basin. Numerical modeling 
analysis has shown that diverting water from the Atchafalaya 
Basin to the Mississippi River at the Old River Control 
Structure would have minimal influence on the movement of the 
oil in the Mississippi River Delta.
    Due to the extreme flooding on the Tennessee and the 
Cumberland Basins earlier this month, Mississippi River 
discharges below New Orleans will nearly double. Even with 
these forecasted increases in discharge, we do not anticipate 
increased flows that would allow opening the Bonnet Carre 
Spillway to reduce the oil from entering the Mississippi Sound 
area.
    With respect to the smaller freshwater diversion 
structures, those are currently operating near design capacity, 
and the modeling again suggests that this may help slow the 
movement of the oil into the project marshes from the marsh and 
the open water boundaries in the immediate vicinity of these 
structures. Our team continues to evaluate other water 
management scenarios to determine if they will help address the 
oil spill issues.
    The Corps' Engineering Research and Development Center is 
also working with the United States Geological Survey program 
to collect and analyze baseline sediment samples in the 
wetlands and the navigation areas. These pre-oil spill samples 
will provide critical comparisons to post-emergency sediments 
that will be required for efforts to continue with Louisiana 
coastal restoration through the beneficial uses of dredged 
material.
    I would like to update my written testimony based on 
actions taken today.
    The Corps of Engineers has proffered a permit to the State 
of Louisiana which grants partial approval for Louisiana's 
barrier island project proposal, covering the State's original 
request and includes six different areas. Once this permit is 
finalized, the State would be authorized to construct the 
barrier islands as long as this construction meets the terms 
and the conditions established in the Corps permit. The 
conditions in the permit respond to all issues and concerns 
raised by the other Federal agencies.
    Additionally, the Corps has issued a total of 12 permits 
using our emergency authorities throughout the Gulf. There are 
seven additional permits that are still pending.
    Seven people have been deployed from our research lab to 
support the Fish and Wildlife Service natural resource damage 
assessment activities. Activities include but are not limited 
to providing expert NRDA strategy development, development of 
bird injury study plans, global positioning systems collection 
and integration of field data, primary GIS and mapping support.
    Our research lab stands ready to assist in the development 
of a common operating plan for the multi-agency oil spill 
response. As the Department of Army lead for environmental 
restoration research and development, our research lab is 
prepared to assist in formulating and implementing strategies 
for long-term monitoring and remediation of wetlands and 
barrier islands areas affected by the oil spill. Our research 
lab is also prepared to provide analysis for the eventual 
remediation of contaminated barrier sediment and material 
removal and ecological restoration.
    That concludes my testimony, Mr. Chairman; and, again, 
thank you for having us. I apologize for having to leave, but 
Mr. Salt will be here.
    [The prepared statement of Ms. Darcy follows:]
    [GRAPHIC] [TIFF OMITTED] 76583A.007
    
    [GRAPHIC] [TIFF OMITTED] 76583A.008
    
    [GRAPHIC] [TIFF OMITTED] 76583A.009
    
    [GRAPHIC] [TIFF OMITTED] 76583A.010
    
    Mr. Markey [presiding]. We very much appreciate your 
ability to be here, and we also appreciate the responsibilities 
which you are discharging simultaneously in the Gulf. So we 
thank you for being here. And when your assistant sits at that 
table, then we will I think still be able to get the expert 
advice from your agency. Thank you.
    The chair recognizes the gentleman from Georgia, Mr. 
Barrow, for an opening statement.
    Mr. Barrow. I thank the chair.
    I am more interested in hearing from the witnesses than I 
am from hearing from me, so I will waive an opening.
    Mr. Markey. The gentleman from Louisiana, Mr. Melancon.

OPENING STATEMENT OF HON. CHARLIE MELANCON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Melancon. Thank you, Mr. Chairman. I appreciate you 
having the hearing today. I thank the witnesses for attending.
    First, I would like to say to those that want a political 
posture, having been through Katrina, Rita, Gustav, Ike, and 
now the oil spill, I am sick of it. I would appreciate it if 
y'all would respect the people and the people of the State of 
Louisiana, the people that died in this accident.
    It has not been fun for 5 years in south Louisiana. The 
press reported today that even using the most conservative 
estimates that the new flow rate estimates on the leak have 
grown to nearly 19 million gallons over the past 5 weeks, 
surpassing the size of the 1989 Exxon Valdez disaster in 
Alaska.
    Having flown over this disaster this past week, I can tell 
you personally that the scale and the scope of this disaster is 
greater than one can ever imagine. My constituents in St. 
Bernard, Plaquemines, Jefferson, Terrebonne, and Lafourche and 
those that have not yet been impacted are watching this slow-
motion tragedy unfold in front of them; and, as of today, there 
is still no absolute assurance that this leak will be brought 
under control in the near future.
    I am heartened to hear initial reports that the top kill 
effort appears to temporarily have stopped the flow of oil and 
gas into the Gulf, and I hope and pray that these efforts as 
they continue lead to a permanent solution.
    The response to this leak has consumed a tremendous number 
of resources and much manpower since the rig first sank weeks 
ago. I have been in constant contact with the administration 
and first responders on the ground. I have also reached out to 
local officials in my district to take inventory of their 
response needs, booms, vessels, whatever, and work towards 
providing these resources as best I can.
    And while I know this hearing today is to discuss the 
current response to the leak, I would like to remind my 
colleagues and the distinguished panel of witnesses today that 
the recovery phase is just as critical as the response phase. 
Our culture is threatened, our coastal economy is threatened, 
and everything that I know and love is at risk. Even though 
this marsh lies along coastal Louisiana, these are America's 
wetlands.
    I just wish to submit the rest of my statement for the 
record. Thank you.
    Mr. Markey. We thank the gentleman.
    Every member of our committee and every American is praying 
for the people of Louisiana and the people of the Gulf. It is 
just an unimaginable tragedy.
    The chair recognizes the gentleman from Alabama, Mr. 
Griffith.
    Mr. Griffith. Thank you, Mr. Chairman; and I appreciate 
Congressman Melancon's feelings and deep emotion.
    I grew up in south Louisiana, on Big and Little Alabama, 
Atchafalaya Basin, the wetlands and spent a lot of my youth in 
the canals down there. And I can tell you that it is 
heartbreaking, heartbreaking to lose the lives of the young men 
from that area whose culture was working on the rigs. And if 
there is blame to go around, I think it will be many, many 
people who will accept responsibility ultimately.
    I would like to thank the chairman and ranking member for 
calling this important hearing today and the witnesses for 
taking the time to come.
    I was upset, however, to hear the announcement this morning 
that the administration has chosen to cancel the western Gulf 
and Virginia lease sales.
    The American Petroleum Institute estimates that from the 
time a lease is sold, it is 3.5 years before drilling begins; 
and if successful, it is 6 years before any production takes 
plays.
    As we learn from these tragedies, these cancellations do 
not reflect the stated President's view that we must have oil 
and gas production in our energy portfolio that we can produce 
safely. Canceling these leases does not protect us, and it 
actually is nondiscriminating in that we are punishing 
companies that have an exemplary safety record. We must 
remember, too, that the Deep Horizon oil--Deepwater Horizon rig 
had drilled over 70 successful wells.
    As we learn the outcome of the many investigations that are 
taking place, it is vital that we learn lessons from this 
incident so that we can keep our workers and environment safe 
to produce our valuable oil and gas.
    We must also question the effectiveness of the response on 
the Federal side as the reports come out stating that this may 
be the Nation's biggest oil spill. Has the bureaucracy been 
unable to facilitate a quick response? Reports from the ground 
say it is not clear who is in charge, which leads to chaos. As 
we see changes in drilling plans and officials suddenly 
resigning, it seems that there are unknown facts surrounding 
the oversight of this project both before and after the 
explosion.
    And thank you both, and all, for coming. Thank you.
    Mr. Markey. The gentleman's time has expired.
    The chair recognizes the gentleman from North Carolina, Mr. 
Butterfield.
    Mr. Butterfield. Thank you very much, Mr. Chairman, for 
convening this very important hearing.
    I thank the witnesses for their testimony today.
    I think I am sort of like Mr. Barrow, Mr. Chairman, I am 
eagerly looking forward to the testimony of the witnesses.
    One thing for sure, there is so much we don't know about 
this tragedy. And what complicates the tragedy is that we are 
not getting much help from BP or Halliburton or from 
Transocean. And perhaps the witnesses' testimony today will be 
enlightening on this very important subject.
    In time, though, we will find out what happened, or the 
courts will find the facts and will report them to the American 
people. It is absolutely clear that more should have been done 
to prevent this disaster.
    Over the past 30 years, the oil industry has used some of 
the most advanced technologies to drill in increasingly deeper 
waters. The rapid ingenuity that allows us to drill miles under 
the ocean floor may have outpaced the commitment to safety. We 
really don't know the extent of this still. I am looking 
forward to discovering the true facts of this matter and to 
report them to the American people.
    And so the President is right. I happen to agree with the 
President. He made a very wise decision today, and I support 
the President entirely.
    Thank you, witnesses, for your testimony. I yield back.
    Mr. Markey. The gentleman's time has expired.
    The chair recognizes the gentleman from Oklahoma, Mr. 
Sullivan.
    Mr. Sullivan. Thank you, Chairman Markey.
    Thank you for holding this hearing today on combating the 
BP oil spill and examining the Federal response to the 
disaster.
    I am interested in learning from our witnesses their 
thoughts on what went wrong and their ideas moving forward to 
prevent this from ever happening again.
    I am disappointed that no one from the Mineral Management 
Services is here to testify on their role in response to this 
effort. Given their integral role of the Federal oversight in 
offshore drilling operations, it is critically important to 
hear the MMS's point of view directly and to get their take on 
what safety lapses occurred and if any regulatory breakdowns 
happened that may have contributed to this terrible accident.
    We still have work to do to uncover exactly what went 
wrong. There are many questions that will be asked today on 
ongoing efforts to contain the leak, whether the Federal 
response plans were in place prior to the incident and whether 
those response plans had been inadequate in light of the 
ecological disaster.
    I commend the brave men and women who are working day and 
night to stop the leak and to protect the shoreline in the Gulf 
region. This is a challenge of epic proportions, and it is the 
job of this committee to conduct a fact-based investigation 
into the disaster to find out what went wrong and how we can 
prevent it from ever happening again. I look forward to getting 
to the bottom of this tragedy and finding solutions to it.
    I yield back the balance of my time.
    Mr. Markey. The gentleman's time has expired.
    The chair recognizes the gentleman from California, Mr. 
McNerney.
    Mr. McNerney. Thank you, Mr. Chairman.
    This disaster and tragedy has been a sobering lesson. 
Technology exists to bring great benefit but also, if not 
properly overseen, can cause great damage.
    Our responsibility now in this body is to provide all the 
resources at our disposal to stop the leakage and to help the 
people that are impacted.
    But next, we need to expose the facts about the causes of 
the leak and implement whatever is necessary to prevent this 
from happening again.
    I intend to pursue those responsibilities with vigor. But 
beyond that, this morning, along with Chairman Markey, Anna 
Eshoo, Judy Biggert, and myself, we introduced the Electric 
Drive Vehicle Deployment Act of 2010. We need to move 
aggressively to make our vehicles more efficient so we can 
reduce this country's overwhelming demand for oil. I invite all 
my colleagues to support this initiative. I thank the panel for 
your participation in this effort.
    I yield back.
    Mr. Markey. The gentleman's time has expired.
    The chair recognizes the gentleman from Missouri, Mr. 
Blunt.
    Mr. Blunt. Mr. Chairman, I have no opening statement.
    Mr. Markey. The chair does not see any other members who 
are looking for recognition at this time.

  STATEMENTS OF THE HONORABLE LISA P. JACKSON, ADMINISTRATOR, 
ENVIRONMENTAL PROTECTION AGENCY; THE HONORABLE LARRY ROBINSON, 
  ASSISTANT SECRETARY OF COMMERCE FOR OCEANS AND ATMOSPHERE, 
     NOAA; THE HONORABLE DAVID J. HAYES, DEPUTY SECRETARY, 
  DEPARTMENT OF THE INTERIOR; AND REAR ADMIRAL JAMES WATSON, 
    DEPUTY, UNIFIED AREA COMMAND, UNITED STATES COAST GUARD

    Mr. Markey. So we will turn to our first witness, who is 
Lisa Jackson, the administrator of the Environmental Protection 
Agency.
    Before becoming the EPA administrator, she served as the 
commissioner of the State Department of Environmental 
Protection in New Jersey. She is a former New Orleans resident 
who graduated summa cum laude from Tulane University and earned 
a masters degree in chemical engineering from Princeton 
University.
    We welcome you, Administrator Jackson. Whenever you are 
ready, please begin.

           STATEMENT OF THE HONORABLE LISA P. JACKSON

    Ms. Jackson. Chairman Markey, Ranking Member Upton, 
Chairman Emeritus Dingell, and members of the committee, thank 
you for inviting me to testify about EPA's role in responding 
to the BP Deepwater Horizon rig explosion. First, let me join 
you all in expressing my condolences to the families of those 
who have lost their lives in the explosion. We owe them our 
very best.
    As we all know, efforts to stop the oil release continue. 
While the environmental disaster that the Gulf of Mexico is 
facing right now certainly has no easy answers, EPA is 
committed to doing its job: Protecting communities, the natural 
environment, and human health from the spill itself, as well as 
any concerns resulting from the response to the spill.
    Since the crisis began, EPA has had nearly 200 staff 
working on the emergency response, from scientists, engineers, 
contractors, and others, in Alabama, Florida, Louisiana and 
Mississippi. We are performing rigorous testing and monitoring 
of air and water quality, and we are sharing that data with the 
public every day. I have personally traveled to the region, the 
region I grew up in and still consider my home, several times 
over the past week.
    For nearly a month, EPA has been monitoring the air and 
water for pollutants which could pose a health risk to 
communities. This monitoring is essential to ensure that 
communities are protected as we respond to the BP spill. All of 
this information is being made public at EPA.gov/BPspill, as 
quickly as we can compile it.
    One of our top priorities is the safe application of 
chemical dispersants. Oil spill dispersants are chemicals 
applied to the spilled oil to break down the oil into small 
drops below the surface. Ideally, the dispersed oil mixes into 
the water column and is rapidly diluted and degraded by 
bacteria and other microscopic organisms.
    We know that dispersants are generally less toxic than oil. 
They decrease the risk to the shoreline and to organisms at the 
surface, and they biodegrade over weeks, not years, as oil 
would. But in the use of dispersants, we are faced with 
environmental tradeoffs. The long-term effects on aquatic life 
are still unknown, and we must make sure that the dispersants 
that are used are as nontoxic as possible. To date, BP has used 
850,000 gallons of dispersant, a volume never used before in 
this country.
    Since this crisis began, EPA has not only demanded, but has 
ordered, with the full force of law, that dispersants must be 
limited in use, in volume, and toxicity.
    EPA was first asked by BP on April 30 to authorize 
unlimited use of dispersants in a novel manner, underwater, at 
the source of the leak. The goal of their approach was to break 
up and degrade the oil before it reached the water's surface 
and came closer to our shorelines, our estuaries, and our 
nurseries. EPA demanded scientific data from the company to 
prove that such use of the dispersants was indeed effective. 
After that data showed that this approach was effective, EPA 
required the implementation of a rigorous monitoring system to 
ensure that underwater application would continue to be 
effective and would also track measurable environmental 
impacts, if any.
    Two weeks later, on May 14th, after the system was in 
place, EPA conditionally granted authorization for use after it 
was made clear to the company and to the public that EPA 
reserved to use the right to halt the use of subsurface 
dispersant if we concluded that at any time the impact to the 
environment outweighed the benefit of disbursing the oil. EPA 
will also continue to push BP to switch to less toxic 
alternatives due to the volumes of dispersant being used and 
the lengthening period of this crisis.
    Mr. Chairman, we are not satisfied that BP has done an 
extensive enough analysis of other dispersant options, and it 
appears that BP seems more interested in defending their 
initial decisions than analyzing possible better options. That 
is why, on May 21, EPA, along with the Coast Guard, ordered BP 
to evaluate alternative dispersants. We continue to hold BP to 
this requirement, and I have further committed EPA's best 
scientists to independently evaluate alternative dispersants as 
well as verifying BP's science.
    And this week, on May 26, along with the Coast Guard, we 
have instructed BP to significantly scale back the subsurface 
use of dispersants to only what is needed to be effective. And 
we have ordered BP to halt use of surface dispersants unless 
they get prior approval from the Federal on-scene coordinator.
    That order has yielded results: Four days ago, the total 
use of dispersants on a daily basis was 70,000 gallons; 
yesterday, it was less than 12,000 gallons.
    Mr. Chairman, we are in a position with no perfect 
solution. As we emerge from this response, I commit to 
revisiting the regulations surrounding EPA's response, 
particularly regarding dispersant registration under the 
National Contingency Plan. I also commit to sharing the results 
with this committee and working with you to tighten the 
underlying laws, as necessary. As a New Orleans native, I know 
firsthand the importance of the natural environment to the 
economy, the health, and the culture of the Gulf Coast.
    As I mentioned, this month since the accident, I have been 
to the region three times. I have listened to people in 
numerous town halls from Venice, Louisiana, to Waveland, 
Mississippi, and other communities in between. I have learned 
in those meetings that the people of the Gulf Coast are eager 
to be part of this response. They want to be informed and, 
where possible, empowered to improve their own situation on 
their own.
    We have a great deal of rebuilding to do both in material 
terms and in terms of restoring this community's trust that 
government can and will protect them in a time of need. This is 
one of those times. I urge that we do everything within our 
power to ensure a strong recovery and future for the Gulf 
Coast. And, of course, I welcome any questions you may have.
    [The prepared statement of Ms. Jackson follows:]
    [GRAPHIC] [TIFF OMITTED] 76583A.011
    
    [GRAPHIC] [TIFF OMITTED] 76583A.012
    
    [GRAPHIC] [TIFF OMITTED] 76583A.013
    
    [GRAPHIC] [TIFF OMITTED] 76583A.014
    
    [GRAPHIC] [TIFF OMITTED] 76583A.015
    
    [GRAPHIC] [TIFF OMITTED] 76583A.016
    
    [GRAPHIC] [TIFF OMITTED] 76583A.017
    
    [GRAPHIC] [TIFF OMITTED] 76583A.018
    
    [GRAPHIC] [TIFF OMITTED] 76583A.019
    
    [GRAPHIC] [TIFF OMITTED] 76583A.020
    
    Mr. Markey. Thank you, Administrator Jackson.
    Our next witness is Dr. Larry Robinson.
    He is the Assistant Secretary of Commerce for Oceans and 
Atmosphere at the National Oceanic and Atmospheric 
Administration. Dr. Robinson guides policy and program 
direction for NOAA's conservation protection and resource 
management priorities.
    Upon being confirmed for the position on May 7, 2010, Dr. 
Robinson went to the Gulf Coast to help coordinate NOAA's 
scientific resources throughout the region. Prior to his 
appointment, Dr. Robinson was the vice president for research 
and a professor at Florida A&M University.
    Whenever you are ready, Mr. Robinson.

           STATEMENT OF THE HONORABLE LARRY ROBINSON

    Mr. Robinson. Thank you, Mr. Chairman, Ranking Member 
Upton, and members of the subcommittee, for the opportunity to 
testify on the Department of Commerce's National Oceanic and 
Atmospheric Administration's role in response to the BP Deep 
Horizon oil spill.
    I wish to begin by letting the families of the 11 people 
who lost their lives in the explosion and sinking of the Deep 
Horizon know that we think of them every day. The 12,800 
employees of NOAA working in the Gulf of Mexico and those 
around the country send our deepest condolences.
    Because you already have my written testimony, I would like 
to simply summarize NOAA's role in the oil spill response and 
then provide a short update on NOAA's latest efforts.
    NOAA's mission is to understand and predict changes in the 
earth's environment, and conserve and manage coastal and marine 
resources to meet our Nation's economic, social, and 
environmental needs. NOAA is also a natural resource trustee, 
and is one of the Federal agencies responsible for protecting 
and restoring the coastal natural resources when they are 
affected by oil spills. As such, the entire agency is deeply 
concerned about the immediate and long-term environmental, 
economic, and social impacts of the Gulf Coast and the Nation 
as a whole as a result of the Deepwater Horizon oil spill.
    NOAA is the Nation's scientific resource for the unified 
command and is responsible for coordinated scientific, weather, 
and biological response services. NOAA's experts have been 
assisting with the response from the very beginning of this 
spill. Offices throughout the agency have been mobilized, and 
hundreds of NOAA personnel are dedicating themselves to assist.
    Over the past few weeks, NOAA has provided 24/7 scientific 
support to the U.S. Coast Guard in its role as Federal on-scene 
coordinator both on scene and through our Seattle operation 
center. This NOAA-wide effort support includes data of the 
trajectories of the oil spill, information management, 
overflight observations, and management, weather and river flow 
forecast, shoreline, and resource risk assessment, and 
oceanographic modeling support.
    Now, a few specifics on seven activities of which NOAA has 
responsibility. NOAA's oceanographers continue to release 
updated oil spill trajectory maps showing the predicted 
trajectory of the oil spill. These maps help inform shoreline 
operations, placement of booms, and oil recovery efforts at the 
surface.
    NOAA's current forecast show offshore winds through 
Saturday morning with magnitudes of 6 to 12 knots. Yesterday's 
overflights observed significant amounts of oil offshore around 
the Mississippi Delta and near the Southern Chandeleur Islands. 
Although offshore winds may eventually lead to a reprieve in 
new shoreline impacts, the Mississippi Delta west of Timberlier 
Bay, Breton Sound, and the Chandeleur Islands continue to be 
threatened by shoreline contacts during NOAA's current forecast 
period of 72 hours.
    The loop current. We continue to track the small amounts of 
oil that was detrained in the loop current late last week. Most 
of that surface oil is now caught in a counterclockwise eddy on 
the northern side of the loop current. And because the top of 
the loop current has now pinched off, any oil that was in the 
loop current will most likely be retained in the Gulf and not 
routed to the Florida strait or the Gulf current.
    Flow rate. NOAA's scientists are part of the National 
Incident Command's flow rate technical group, which is designed 
to support the response and inform the public by providing 
scientifically validated information about the amount of oil 
flowing from the leaking well, while ensuring the vital efforts 
to cap the leak are not impeded.
    Fisheries disaster declaration. On May 24, Commerce 
Secretary Gary Locke determined that there has been a fishery 
disaster in the Gulf of Mexico due to the economic impact on 
commercial and recreational fisheries from the ongoing Deep 
Horizon oil spill. The affected area includes the State of 
Louisiana, Mississippi, and Alabama. Secretary Locke made the 
determination under section 312(a) of the Magnuson-Stevens Act. 
The declaration was made in response to requests from Louisiana 
and Mississippi based on the loss of access to many commercial 
fisheries and the existing and anticipated environmental damage 
from this unprecedented event.
    Fisheries closure and seafood safety. This past Tuesday, 
NOAA's National Marine Fishery Service modified the boundaries 
of the fisheries closed areas based upon the latest oil spill 
trajectories. The modified area increased the closed area to 
54,096 square miles. This represents 22.4 percent of the Gulf 
of Mexico's exclusive economic zone. NOAA is sampling seafood 
inside and outside of the closed areas and working with the FDA 
to ensure that seafood is not contaminated and to guide 
decisions about when closed areas can be reopened.
    Natural resource damage assessment. NOAA is coordinating 
the natural resource damage assessment effort with the 
Department of the Interior as a Federal co-trustee, as well as 
co-trustees in five States and representatives of at least one 
responsible party, British Petroleum. The focus currently is to 
assemble existing data on resources and their habitat, and 
collect baseline or pre-spill impact data. Data on all 
resources and habitat are also being collected.
    Number seven. Social and environmental impact. NOAA is 
aggressively working with other agencies and non-Federal 
scientists to understand where oil is on the surface and below 
the surface and to evaluate the environmental impacts of both 
the spill and any associated mitigation efforts.
    To close, I would like to assure you that we will not 
relent in our efforts to protect the livelihoods of Gulf Coast 
residents and mitigate the environmental impact of this spill.
    Thank you for allowing me to testify on NOAA's response 
efforts. I am happy to answer any questions you may have.
    [The prepared statement of Mr. Robinson follows:]
    [GRAPHIC] [TIFF OMITTED] 76583A.021
    
    [GRAPHIC] [TIFF OMITTED] 76583A.022
    
    [GRAPHIC] [TIFF OMITTED] 76583A.023
    
    [GRAPHIC] [TIFF OMITTED] 76583A.024
    
    [GRAPHIC] [TIFF OMITTED] 76583A.025
    
    [GRAPHIC] [TIFF OMITTED] 76583A.026
    
    [GRAPHIC] [TIFF OMITTED] 76583A.027
    
    [GRAPHIC] [TIFF OMITTED] 76583A.028
    
    [GRAPHIC] [TIFF OMITTED] 76583A.029
    
    Mr. Markey. Thank you, Dr. Robinson.
    Our next witness is Mr. David Hayes. He is the Deputy 
Secretary of the U.S. Department of the Interior. Mr. Hayes 
served as counselor to Interior Secretary Bruce Babbitt and 
Deputy Secretary of the Interior during the Clinton 
administration.
    I understand that you will have to leave at 4:00 to attend 
to spill response matters, Mr. Hayes. So please begin your 
testimony.

           STATEMENT OF THE HONORABLE DAVID J. HAYES

    Mr. Hayes. Thank you, Mr. Chairman, also Ranking Member 
Upton, and members of the subcommittee. I will give a few oral 
remarks to accompany the written testimony from the Department.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 76583A.030
    
    [GRAPHIC] [TIFF OMITTED] 76583A.031
    
    [GRAPHIC] [TIFF OMITTED] 76583A.032
    
    [GRAPHIC] [TIFF OMITTED] 76583A.033
    
    [GRAPHIC] [TIFF OMITTED] 76583A.034
    
    [GRAPHIC] [TIFF OMITTED] 76583A.035
    
    [GRAPHIC] [TIFF OMITTED] 76583A.036
    
    [GRAPHIC] [TIFF OMITTED] 76583A.037
    
    Mr. Hayes. We have been, as you would imagine, 
extraordinarily busy here on this matter since day one. The 
morning after the accident, I went down to the Gulf and was the 
first administration person working with Admiral Landry on 
setting up the command center. We have been working every day 
since then virtually 24/7 with several streams of work, 
obviously working to plug the leak.
    Secretary Salazar has been in Houston four times. Dr. 
Marcia McNutt, the director of the U.S. Geological Survey, has 
been in Houston for most of the last three weeks working with 
Secretary Chu and the directors of the National Labs to provide 
Federal oversight and direction in connection with those high-
tech activities.
    Thirdly, we have been very active on the response effort 
side. The Department of the Interior has more than 600 
personnel mobilized in the four command centers in the Gulf 
region, including some of our highest-ranking folks. Jon 
Jarvis, the director of the National Park Service, is our lead 
in the Mobile, Alabama, office, by way of example.
    We have significant assets in the area. We have 40 National 
Park units and/or National Wildlife Refuge units in the area. 
And we are leading a lot of the natural response efforts on the 
natural resource damage response efforts.
    We also have been doing some special science projects. As 
Dr. Robinson referred to, there has been a Flow Rate Task Force 
established, and Dr. Marcia McNutt has led that task force, our 
director of USGS. And she provided a briefing earlier today 
that updated and provided independent governmental estimates of 
the flow rate coming out of the leaks.
    More broadly, I will just mention a couple of other 
important aspects of what we have been doing. Obviously, 
because of our jurisdiction over the Minerals Management 
Service, we have been deeply involved in addressing the safety 
issues that have arisen in connection with this disaster. We 
have started our own investigation, working with the United 
States Coast Guard. Secretary Salazar also commissioned an 
independent investigation by the National Academy of 
Engineering, which is under way.
    Today, we submitted to the President a 30-day safety report 
that he requested, suggesting interim additional measures to 
increase the safety for offshore drilling. And, as you know, 
the President accepted that report and took a number of steps 
to ensure that we would not have additional problems until we 
could fully implement those safety requirements and also get 
the benefit of the input of the Presidential commission that he 
established and which is now under way.
    We also, of course, have been undertaking broader reform 
efforts at the MMS. As you know, we have taken reform efforts 
with the Royalty-in-Kind Program and, most recently, have 
reorganized the MMS to separate out the enforcement function 
from the permitting function, and also to separate out the 
revenue function, which collects an average of $13 billion per 
year.
    I will leave it with that, Mr. Chairman. I look forward to 
questions.
    Mr. Markey. Thank you, Mr. Hayes, very much.
    Our next witness, Mr. Salt, is the principal deputy 
secretary of the Army. He provides policy for the Army Corps of 
Engineers. Assistant Secretary Darcy delivered the Army Corps 
prepared testimony, so Mr. Salt will be there to answer 
questions moving forward.
    Our next witness is Rear Admiral James Watson.
    Rear Admiral Watson assumed duties as deputy commander of 
the United States Coast Guard Atlantic Area Command in April of 
2010. Prior to that, he served as the Atlantic area's first 
director of operations.
    Rear Admiral Watson graduated from the Coast Guard Academy 
in 1978 with a degree in marine engineering, and he 
additionally has masters degrees in mechanical engineering, 
naval architecture, and strategic studies.
    When you are ready, Admiral, please begin.

             STATEMENT OF REAR ADMIRAL JAMES WATSON

    Admiral Watson. Good afternoon, Chairman Markey, 
Representative Upton, distinguished members of the committee.
    First, I want to say that this is an incident that is a 
tragic incident for the people of South Louisiana, Mississippi, 
Alabama, and even parts of Florida.
    I have been down there, and we are terrifically sensitive 
to the impacts that this has on them, and particularly also the 
people who have lost their loved ones on the Deepwater Horizon.
    Since the night of the explosion, Federal, State, and local 
authorities and the responsible parties, BP and Transocean, 
have been working around the clock to secure the leak and 
mitigate environmental damages. My role as the deputy Federal 
on-scene coordinator is to support Rear Admiral Mary Landry, 
the Eighth Coast Guard District Commander. We will carry out 
our national policy and direction, and have oversight of all 
response operations as directed by the National Contingency 
Plan.
    The Deepwater Horizon explosion on the night of April 20 
set off an unfortunate chain of events. The event began as a 
search-and-rescue case, and within the first few hours of the 
explosion, 115 of the 126 crew members were safely recovered. 
After 3 days of continuous searching, the Coast Guard suspended 
the search for the 11 missing crew members. My deepest 
sympathies are for the families and friends of the Deepwater 
Horizon crew who lost their lives in the line of duty.
    A massive oil spill response followed the sinking of the 
Deepwater Horizon, unprecedented in its scope, complexity, and 
indeterminate nature, the spill has required an extraordinary 
unified response across all levels of government, industry, and 
the communities of the five Gulf Coast States.
    A federally-led incident command was quickly established to 
coordinate this massive operation. Employing lessons learned 
from the Exxon Valdez, the Cosco Busan, spill of national 
significant exercises, and through the implementation of the 
Oil Pollution Act of 1990, the response community galvanized 
their efforts under a common framework provided by the National 
Contingency Plan.
    This framework, developed over the last two decades, 
enables us to respond to these catastrophes in a way that 
leverages the strengths of private industry under the 
leadership of a Federal on-scene coordinator. In accordance 
with the Oil Pollution Act of 1990, we integrate the best of 
Federal, State, and local resources alongside the best and 
brightest of industry, academia, and the public in a unity of 
effort to protect our natural resources, livelihoods, and the 
security of the Nation.
    From the President down, the Federal Government has taken 
an ``all hands on deck'' approach from the moment the explosion 
occurred, including the designation as a ``spill of national 
significance,'' with Admiral Thad Allen as the national 
incident commander.
    From the start, our objectives have remained constant and 
clear: Stop the leak, fight the spill offshore, protect 
environmentally sensitive areas, and mitigate the effects on 
the environment, the economy, and the local communities.
    Despite several aggressive measures, including the top hat 
and the riser insertion tube, engineers have been unable to 
stop the flow of oil. Today, we eagerly await the outcome of 
the top kill. We continue to monitor the progress in operation, 
which is expected to take 3 to 4 days.
    In parallel, BP is drilling relief wells from two 
additional rigs. I meet personally with BP's chief of 
operations officer, and I know their drilling contractors are 
working around the clock to secure the source of the oil.
    While we are working permanently to secure the leak, we are 
attacking the spill as far offshore as possible. As the oil 
moves from one large slick to multiple ribbons of oil, we 
continue to deploy traditional removal methods. These include 
in situ burning, skimming, and pre-approved surface 
dispersants.
    The magnitude of this spill has required us to look at 
nontraditional mitigation strategies. Subsurface dispersants 
and satellite imagery are just a few of the innovative 
technologies responders are using offshore. Near shore, almost 
2 million feet of hard boom has been deployed, according to 
environmentally and economically sensitive areas, as outlined 
in local area contingency plans. This includes different types 
of booms and other nonconventional barriers methods, including 
National Guard deployment of Hesco barriers in Mississippi and 
sandbags in Louisiana.
    As oil reaches the shoreline, we will continue to be 
aggressive in monitoring BP's contractors and launching 
coordinated Federal and State actions. We require BP to obtain 
and deploy whatever resources are necessary, including new 
technologies, to ensure we are doing everything we can to 
protect the shoreline environmental sensitive areas in the Gulf 
region.
    Mitigating the effects of this spill extend beyond 
environmental impacts and include damages to surrounding 
communities who depend so heavily on the Gulf of Mexico for 
their livelihood. The fishermen and small business owners are 
anxious to do whatever they can. Recognizing the desire of so 
many to help and support the local economies, the unified 
command has established a volunteer and vessel of opportunity 
program to maximize the opportunities available to the local 
communities to support response and cleanup operations.
    Although the incident remains under investigation by a 
joint Minerals Management Service and Coast Guard Marine Board 
of Investigation, it may be months before we fully understand 
what caused the explosion. However, the spill has heightened 
the need for building resiliency into our Nation's critical 
infrastructure so we are better prepared to respond to system 
failures and prevent spills of national significance from 
occurring in the future.
    Our response to this historic spill is far from over, but I 
want to reassure you, the entire responsive community is fully 
committed and will continue to aggressively pursue all 
available options to mitigate the environmental and economic 
impacts of the spill.
    Thank you for the opportunity to testify today.
    [The prepared statement of Admiral Watson follows:]
    [GRAPHIC] [TIFF OMITTED] 76583A.038
    
    [GRAPHIC] [TIFF OMITTED] 76583A.039
    
    [GRAPHIC] [TIFF OMITTED] 76583A.040
    
    [GRAPHIC] [TIFF OMITTED] 76583A.041
    
    [GRAPHIC] [TIFF OMITTED] 76583A.042
    
    [GRAPHIC] [TIFF OMITTED] 76583A.043
    
    [GRAPHIC] [TIFF OMITTED] 76583A.044
    
    [GRAPHIC] [TIFF OMITTED] 76583A.045
    
    Mr. Markey. Thank you, Admiral Watson, very much.
    The chair will now recognize himself for a round of 
questions.
    Deputy Secretary Hayes and Admiral Watson, this is BP's oil 
spill. BP hired Transocean to drill the well. BP hired 
Halliburton to cement the wellbore. BP owns the equipment 
necessary to stop the oil leak and has sole responsibility to 
stop the leak and pay for the cleanup cost. But BP gave 
deflated estimates about the flow rate, how much oil was 
actually going out into the ocean on a daily basis, couldn't 
provide a live feed of its efforts to the public for over a 
month after the explosion, and has not yet stopped the leak.
    What oversight authorities of the Federal Government have 
been engaged to ensure BP gets the job done?
    Admiral Watson.
    Admiral Watson. Sir, as soon as the oil spill response 
started, we have had a designated Federal on-scene coordinator 
who is responsible for that oversight. BP was given a letter 
that made that very clear, and the organization was 
established. All of the activities involving the response have 
been under the oversight and direction of the Federal on-scene 
coordinator.
    As the incident grew larger and larger, we expanded that 
organization from a local incident command to an area command, 
and finally to a national incident command with the commandant 
of the Coast Guard, Admiral Thad Allen, in charge.
    Mr. Markey. Thank you.
    Administrator Jackson and Rear Admiral Watson, yesterday 
the Coast Guard ordered all ships participating in the BP oil 
spill cleanup to cease operations after crew members on three 
boats reported health problems. Since the start of this spill, 
EPA has been stating that the oil spewing under the sea is 
harmful to human and animal health.
    Such illness is nothing new. Following the Exxon Valdez 
spill in 1989, Exxon reported 6,722 cases of upper respiratory 
infection from workers participating in the cleanup. Yet, BP 
spokesman Graham McEwen said this past Tuesday that he was 
unaware of any health complaints amongst cleanup workers. And 
fishermen working on cleanup are saying they weren't provided 
with protective equipment.
    Did BP consult with the EPA or the Coast Guard on the 
health effects of deploying volunteers?
    Admiral Watson. We have at each of our incident command 
posts and at the area a safety officer. And our plans, our 
daily plans are updated according to the changing conditions of 
which these workers are exposed.
    One of our highest concerns has been for the workers 
actually over the well, which caused the explosion in the first 
place, from the volatile organic compounds. As we hire 
contractors, we ensure that they are in compliance with the 
OSHA standards for working in these conditions, and volunteers 
are given specific training and equipment for the conditions 
that they would be volunteering to participate in.
    For the fishing vessels, there is one set of training 
requirements; for the shore-side people, there is another. And 
then there is the wildlife people.
    Mr. Markey. Do you think that these reported symptoms 
experienced by people involved in the cleanup efforts could be 
a result of exposure to the chemical dispersants?
    Admiral Watson. Sir, I can't comment on that specifically. 
But I know that the unified command is responding to those and 
making changes when we determine what it actually is that is 
being reported.
    Mr. Markey. How is the EPA going to evaluate the long-term 
public health concerns associated with the use of dispersants, 
including the ingestion of contaminated seafood?
    Ms. Jackson. Chairman, we will first rely on data. That 
data is a collected now. Primarily along the shoreline, air 
data is being collected along the shoreline in conjunction with 
the States, and also with two roving labs. We call them our 
TAGA vehicles, and also by the ASPECT aircraft, which is able 
to take air samples, especially during surface burning 
operations.
    EPA is monitoring for particulate matter, volatile organic 
compounds, specifically compounds that would tend to cause odor 
from oil, BTX, benzene toluene, xylene. And we have added those 
components that are most volatile in the dispersant. We are 
just getting that data in. We haven't seen any dispersant 
chemicals, but we have seen elevated levels of some of those 
volatile organic compounds. We have also seen occasionally 
elevated levels of hydrogen sulfites, which we are monitoring 
for.
    There is more and more data added every day, and I think it 
is EPA's job to assess both any short-term impacts--we haven't 
seen numbers that give us concern. We did have one volatile 
spike in the last few days and a hydrogen sulfite spike at one 
location--and then interpret for the people of the Gulf Coast 
what that means.
    Right now, if you go on our Web site, it says that what you 
smell probably can make you nauseous, give you a headache, 
irritate you. So the first thing to do is if you are not 
participating in the cleanup or response is to remove yourself, 
because some people are quite susceptible to that. When I was 
there, it didn't bother me, but I am notorious for not being 
able to smell.
    If you are a worker, then we refer--whether we are getting 
those complaints from the workers themselves or NGOs--those 
complaints to OSHA, which is part of the unified command, 
because worker protection and safety is their responsibility. 
We are not doing as much monitoring out over the wellhead 
itself.
    Mr. Markey. Thank you.
    The chair recognizes the gentleman from Michigan, Mr. 
Upton.
    Mr. Upton. Thank you, Mr. Chairman.
    I would like each of you to give me what your estimate is 
of your cost thus far to the agency and what you might think it 
will be for the foreseeable future. Obviously, a ballpark 
figure is sufficient.
    Ms. Jackson. I will go. To date, EPA has spent 
approximately $6.7 million. Of that, we spent about $5.2 
million in the regions in reimbursable funds and approximately 
$1.5 million in headquarters.
    Mr. Upton. And what do you anticipate for the next 30 to 60 
days or so?
    Ms. Jackson. Double it. You know.
    Mr. Upton. Mr. Robinson?
    Mr. Robinson. Thank you. NOAA has expended $4.6 million on 
Deepwater to date. This includes $2.9 million in reimbursable 
funds from the Oil Spill Liability Trust Fund and $1.7 million 
in recurring activities. I don't have the benefit of an 
estimate of what those expenses might be within the next 30 
days. We will make that calculation and get back to you.
    Mr. Upton. Mr. Hayes?
    Mr. Hayes. Mr. Upton, our estimate to date is about $8 
million. That is fresh from a House Appropriations hearing this 
morning. About 60 percent of that we believe will be directly 
reimbursable under agreement with the Coast Guard from BP. Some 
of the balance of that will not be. So that is our estimate at 
this point. And like Dr. Robinson, we can try to project 
forward, but that is pretty speculative.
    Mr. Upton. Mr. Salt, you get the added importance, I guess, 
of if we go ahead with these permits that have been approved, 
you all may be doing some extensive work there as well. So what 
are your estimated costs?
    Mr. Salt. Sir, I don't have a good answer to that. The 
Corps' work so far has been on providing certain technical 
analysis, particularly the hydrologic analysis, as Secretary 
Darcy testified, with respect to options managing the 
Mississippi River. And then with respect to our regulatory 
effort the bulk of our future efforts will be in the monitoring 
part of that. It is not expected that we would do any of the 
work. At this time, it is not expected that we would do any of 
the work with respect to those permits.
    Mr. Upton. Mr. Watson?
    Admiral Watson. My estimate is about $19 million at this 
time.
    I have to say, though, that one of the things that I am 
responsible for in my position as the deputy Federal on-scene 
coordinator is management of the ceiling of the emergency fund 
under the Oil Spill Liability Trust Fund. It is a portion of 
the overall trust fund that we use for responding to 
emergencies. And we provide funding to other Federal agencies, 
State agencies. We use that fund to hire contractors directly. 
It is not used for damage costs or claims.
    That fund, when I was down there just a couple days ago, 
was up to $85 million total. And that is--when you are in a 
Federal response, that is the number that you are managing. As 
opposed to----
    Mr. Upton. My clock is running here fast. I want to get in 
a couple more questions. So as you all look at your costs thus 
far and going ahead, I would imagine that all of you will be 
seeking full reimbursement from BP.
    Is there any argument to that statement?
    Good. All five are unanimous.
    Ms. Jackson, you indicated that you have done rigorous 
testing, sharing the data, particularly of the subsurface 
disbursements. Did they work? Are they working? Is that the 
reason why it has been reduced from 70,000 gallons to 12,000 
gallons, because they are working? Because, based on what I 
have seen, there is not a lot that is working.
    So tell me how they are working if in fact you are reducing 
the flow by a considerable amount.
    Ms. Jackson. Thank you, Mr. Upton.
    One of the reasons that BP first requested the ability to 
use the dispersants in the subseas, something that has never 
been done as far as we can tell, anywhere in the world, is that 
they claim they can use much less dispersant and still be much 
more effective. And that is exactly what we are seeing right 
now. They use about--of the amount I told you, the 12,000, they 
used 11,110 gallons in the subsurface; they used 1,029 at the 
surface. The day before that, they used 200 at the surface.
    Mr. Upton. 200,000 or 200 gallons?
    Ms. Jackson. 200 gallons. The Coast Guard would rather, at 
the surface, use surface burning whenever possible. Surface 
burning obviously depends on the wind, and of course skimming 
and other collection operations.
    You asked about the monitoring that we do in the 
subsurface. There are three basic pieces of data that are 
reviewed every night by a team of Federal scientists. The first 
is particle size. The smaller particle size is a measure of 
dispersion, if you will. The second is dissolved oxygen. There 
has been lots of concern that there would be too little oxygen 
in the system. And when that happens, the system becomes 
hypoxic and creatures die, to put it mildly. And the third is a 
toxicity test, which is done on a critter called rotifer. And 
those tests were agreed to by a panel of scientists because we 
can get them back quickly. And right now, we are seeing usually 
above 90 percent survivability when we expose this creature to 
the oil dispersant water mixture. I think we have had one or 
two samples maybe in the high 80 percent survivability.
    Mr. Markey. The gentleman's time has expired.
    The chair recognizes the chairman emeritus of the 
committee, Mr. Dingell.
    Mr. Dingell. Mr. Chairman, thank you.
    This question for the witness from the Coast Guard and from 
the Army.
    Louisiana has proposed building a chain of sand barriers 
along the Louisiana coast to prevent oil from the coastal 
wetlands. The plan has not yet been approved. Why, and when?
    Admiral Watson. There is a consideration that the Federal 
on-scene coordinator uses in a proposal like this, and it is 
primarily: How effective is it going to be? Is it the most 
effective thing in the tradeoffs?
    Mr. Dingell. By the time you decide that, I have a notion 
that the oil will be well into the wetlands. How long is it 
going to take to come to this decision?
    Admiral Watson. First of all, we have to get a reading from 
the Corps and the other agencies as to whether it is going to 
be more hazardous to the environment than it would be if you 
didn't do it. Then, secondly, we have to make a determination 
if it is going to be effective stopping the oil.
    Mr. Dingell. Now, which agency down there has 
responsibility for the environmental impact? It is the 
Department of the Interior, is it not?
    Mr. Hayes. That is correct.
    Mr. Dingell. Now, you did not require the environmental 
impact for the particular--impact statement for the particular 
well that we are talking about in the spill. Is that correct?
    Mr. Hayes. That is correct. There is a legal restraint.
    Mr. Dingell. Let me continue, please, because I only have a 
certain amount of time.
    Why did you not have an environmental impact statement? 
Each drilling undertaking is different, and each part of that 
of the tract on which you had the general environmental impact 
statement is different, and the equipment is all different. Why 
was there not an environmental impact statement on that?
    Mr. Hayes. The administration has asked the Congress to 
change the law under the Outer Continental Shelf Lands Act. The 
Department is required to process an exploration plan and 
permit within 30 days.
    Mr. Dingell. Let me ask you about 30 days; I want to hear 
about that later. But the environment, the National 
Environmental Policy Act is still in force. It requires you, 
wherever there is going to be a significant environmental 
impact, to file one of these environmental impact statements. 
Why was that not filed here?
    Mr. Hayes. CEQ has a categorical exclusion for this 
activity that they----
    Mr. Dingell. Why did that do that?
    Mr. Hayes. They did that in 1986. The chair has started to 
review that----
    Mr. Dingell. What year did they do it in?
    Mr. Hayes. 1986.
    Mr. Dingell. OK. Now, explain to me, if you please, why I 
am hearing about the risks of drilling or failure to drill 
properly and I am not hearing anything about the steps that the 
agencies have taken to ensure that good drilling practices are 
followed?
    Mr. Hayes. Congressman, the Minerals Management Service 
spends about $30 million a year on an inspection program, has 
66 full-time inspectors. We are doing a stem-to-stern 
evaluation, however, of whether that enforcement mechanism 
where they check against the prescriptive requirements and the 
regulations is adequate or not. And that is going to be an 
important outcome, I think, of the investigation that has 
started and the Presidential commission that has been 
established.
    Mr. Dingell. Now, you tell me that you are required to come 
to a decision within 30 days on these permits. Is that in the 
statute?
    Mr. Hayes. It is in the statute.
    Mr. Dingell. Do you have any authority to waive or to 
extend that?
    Mr. Hayes. No authority, unfortunately. It is a shell. And 
legal counsel, since this law was passed in 1978, have said 
there is no authority to extend it.
    Mr. Dingell. All right. Now, MMS has granted 27 categorical 
exemptions to oil and gas companies. Would you submit to the 
committee the list of the categorical exemptions that you have 
given and why those categorical exemptions have been given in 
each instance, please.
    Mr. Chairman, I ask unanimous consent that the record stay 
open so that can be received.
    Mr. Markey. Without objection, so ordered.
    Mr. Dingell. Now, I note that you have given categorical 
exemptions to a well at 4,000 feet deep. Here, you gave one at 
5,000 feet. And you now have one that I note is given to 
Anadarko Petroleum for a plan that will be for a drilling 
undertaking that will be more than 9,000 feet. Why are these 
given? And explain why they are a, quote, category of actions 
which do not individually and cumulatively have a significant 
effect on the human environment and for which, therefore, 
neither an environmental impact assessment nor an environmental 
impact statement is required.
    And I am quoting from the actions of the agency. Please 
explain that.
    Mr. Hayes. Congressman, I would have to look at those 
specific examples. They have been--those are preceded by two 
environmental impact statements, one in connection with a 5-
year plan under which those leases were granted, and then a 
second environmental statement was prepared for each specific 
lease sale under the 5-year plan.
    You raised a very important point, though. And Chairman 
Sutley and Secretary Salazar 10 days ago suggested a top-to-
bottom review of the NEPA approach taken by the Minerals 
Management Service.
    Mr. Dingell. Can you make a bald statement that every 
action that was taken by the drillers in each of these cases 
conformed in full to the environmental impact statement and to 
the permit?
    Mr. Hayes. I personally cannot.
    Mr. Dingell. Would you submit for the record a statement 
that you can or cannot; and, if so, why?
    Mr. Hayes. Certainly.
    Mr. Dingell. Thank you. Thank you, Mr. Chairman.
    Mr. Markey. The gentleman's time has expired.
    The chair recognizes the ranking member of the full 
committee, the gentleman from Texas, Mr. Barton.
    Mr. Barton. Thank you, Chairman Markey.
    The first thing I want to establish is chain of command.
    Admiral Watson, when I was in Louisiana with Chairman 
Markey several weeks ago, the top Federal official on site was 
an admiral named Mary Landry. Is she still the top Federal 
official on site?
    Admiral Watson. Yes, sir.
    Mr. Barton. Who does she report to?
    Admiral Watson. She reports to Admiral Thad Allen.
    Mr. Barton. And who does he report to?
    Admiral Watson. He reports to Secretary Napolitano.
    Mr. Barton. And who does she report to?
    Admiral Watson. The President.
    Mr. Barton. So that is the chain of command?
    Admiral Watson. Yes, sir.
    Mr. Barton. The President, Napolitano, Admiral Allen, and 
the Admiral Landry?
    Admiral Watson. Yes, sir.
    Mr. Barton. Is there any private representative on site 
that doesn't have to report to Admiral Landry?
    Admiral Watson. There is a requirement under the Oil 
Pollution Act of 1990 that we have a unified command and that 
the Federal on-scene coordinator is the person with the 51 
percent vote.
    Now, we do have a unified command in which we have a State 
on-scene coordinator, so the States are well represented, as 
well as a coordinator from the responsible party.
    Mr. Barton. The point that I am trying to get across, the 
British Petroleum representatives, the Halliburton 
representatives, the Cameron representatives, the Transocean 
representatives, any other contractor that works for a private 
company, they have an independent chain of command through 
their companies, but they have to work with Admiral Landry or 
her designee; they cannot act independently. Is that not 
correct?
    Admiral Watson. That is correct. The COO of BP is in our 
command center. He is right next to Mary Landry.
    Mr. Barton. Now, I want to go to Administrator Jackson.
    We have talked quite a bit, and you mentioned in your 
testimony the dispersant issue. And I want to say right off the 
front, that I think that is a judgment call, and I think EPA 
has made the right judgment. I think it is the right judgment 
to try to use these dispersants to try to keep the oil under 
water as opposed to letting it get on the top of the water 
where it would wash onshore and could foul up the beaches and 
the marshlands.
    So I am not negative at all about the decision to use 
dispersants. And I understand some of your testimony about the 
qualitative differences on how much to use. I think the least 
you can use, the better. I am not second-guessing that.
    My question is, as the administrator of EPA, has British 
Petroleum received approval before using dispersant? And have 
they ever used dispersants in a way that EPA specifically 
disapproved of?
    Ms. Jackson. The answer to your first question is they have 
been--they were approved, pre-approved through the Federal on-
scene coordinator's regional response plan that use of 
dispersants at the surface, as long as it was on the EPA 
product schedule, was allowable for surface applications. So 
that is yes. I believe you said, were they approved? Yes, 
throughout the--by the FOSC ultimately, but in conjunction with 
the ROT.
    They specifically requested approval to use it in the 
subsurface and received that, I believe it was, May 14. The 
date is in my testimony, my oral and written testimony.
    And then you asked if at any time their application of 
dispersants has been in violation of an order. I would say the 
closest that we got to that was Sunday night when my concern 
was that we had already approved use of subsea dispersants. All 
the testing and science was showing that it was working, and 
yet the amount of spraying at the surface kept going up. And 
the conversation that I had with Admiral Landry, and then she 
brought in Mr.--I am sorry, I don't remember his name. His 
first name is David. I am sorry--was that we wanted to see that 
go down. Their initial response was that they didn't understand 
that. But they did come around. And we have seen the amounts go 
down, as I mentioned in my testimony.
    Mr. Barton. Again, there can be honest differences of 
opinion about just the fact that you use dispersant or not, 
about the qualitative differences. But in terms of the policy, 
they have gotten approval before beginning and they have--while 
they have had differences of opinion, they have not continued 
to do something that EPA or the on-site Federal official 
Admiral Landry didn't approve of. That's a true statement.
    Ms. Jackson. It is. The one piece of color I add to that, 
sir, is just that we--at this point I do not feel like I have 
the science to say with certainty that they are using the least 
toxic dispersant out there. So we are getting that science. It 
will take time.
    Mr. Barton. I understand that.
    Know my time has expired, Mr. Chairman.
    I have two more questions. One is for the representatives 
of the Corps of Engineers.
    I want to know why in God's name Louisiana hasn't gotten 
approval to begin to build these berms. They have been waiting 
for over a month. Why would you not assign responsibility to 
the Governor of Louisiana, and tell them to do what they can to 
protect their marshland?
    Mr. Salt. Sir, we actually received the permit request on 
May 11. We quickly coordinated that request, went back to the 
State. They agreed that they needed to modify the request based 
on some issues that were developed. We took their modified 
request, and we have been working with that.
    One of the main issues is the time it would take to do it. 
The State's request, you can think of it as 19 increments of 
berm. We just coordinated an analysis of how long it would take 
to construct the shortest, and it was 5 months. Part of the 
analysis then is, how much of this is it reasonable to permit 
under the emergency provisions? The Jacksonville district 
commander proffered that to the Governor.
    Mr. Barton. So basically you have sat on your bottom for a 
month, and nothing--and I think you got some permitted today. 
Isn't that correct? Six sections got permitted. And in the 
meantime, the oil is in the marshland. Even if it didn't work--
--
    Mr. Salt. Sir, my math is 13 days. But, yes, in that 
process of trying to sort--I mean, the question really is, is 
it more harm than good to throw up a berm for over 100 miles 
along the coast?
    Mr. Barton. And so the Corps' judgment is it is more harm.
    Mr. Salt. There is a part of that proposal that is 
beneficial. That is the part that it worked through with the 
State and others. I am not sure that--the State hasn't accepted 
the offer yet, but that was offered.
    Mr. Barton. If the Corps had given approval immediately, 
could not some of the oil that had gotten in, has been able to 
infiltrate into the marshland, would it not have been prevented 
from getting into the marshland?
    Mr. Salt. Sir, I honestly don't think so. We are talking 
about large berms. And to achieve some of the benefits you are 
talking about, like I said, to complete the shortest of the 
berms, the Corps' estimate was 5 months.
    Mr. Barton. Well, maybe if Louisianans did it, it might not 
take 5 months.
    Mr. Salt. Even if we accept those kinds of proficiencies, 
sir, I think--the Corps was trying and is trying and is 
committed to try----
    Mr. Barton. I encourage you to try to harder.
    I thank the chair's discretion.
    Mr. Markey. The gentleman's time has expired.
    And, Mr. Hayes, we know that you have an important meeting. 
Obviously, because of your responsibilities, you have to go 
there right now. So we thank you for coming here today.
    Mr. Hayes. Thank you, Mr. Chairman. I would be happy to 
respond to any further questions for the record.
    Mr. Stearns. Point of information, Mr. Chairman, is it 
possible that someone from MMS could be here as his 
replacement? Since we do have a hearing and we are in Congress, 
we would like to have somebody here; and many of us still want 
to ask him questions.
    Mr. Markey. I don't know that there is anyone designated by 
the Secretary to replace Mr. Hayes.
    Mr. Hayes. We do not have anyone else here.
    Mr. Stearns. Can he possibly wait for one series of 
questions?
    Mr. Markey. Again, I know that they are part of the spill 
response team, and Mr. Hayes is responsible for it, and I just 
don't want our hearing to interfere with his ability to 
participate in the important decisions which are being made 
right now.
    Mr. Hayes. Thank you, Mr. Chairman.
    Mr. Markey. Thank you, Mr. Hayes.
    The chair recognizes the gentlelady from California, Ms. 
Capps.
    Mrs. Capps. Thank you, Mr. Chairman and thank each of our 
panelists. It has been a very arduous process, both down in the 
Gulf and here answering questions.
    Workers and volunteers and local residents are at risk as 
we speak here for a host of negative health affects. Just 
yesterday, the unified command recalled fishing vessels working 
on the spill due to workers' experience of nausea, dizziness, 
headaches, and chest pain. Previous spills have shown that more 
serious health problems may arise over time.
    Administrator Jackson, according to an L.A. Times interview 
with some fishermen working on the results of the spill 
yesterday--or the interview was yesterday--while they were told 
not to touch the oil in their training, they weren't provided 
with any protective equipment by BP. Instead, they wore leather 
boots, regular clothes on the boat to work the spill.
    When asked what BP told them, the fishermen responded that 
they--meaning the BP officials--told us if we ran into oil it 
wasn't supposed to bother us.
    Do you think that BP has done enough to protect the health 
of the oil spill responders in the Gulf Coast communities?
    Ms. Jackson. Based on that story, no, ma'am.
    Mrs. Capps. Just for the record, I was at a hearing earlier 
today with the CEO of BP, and I asked the same question, and I 
didn't get any response. So it seems to me that, while BP does 
have some technical expertise and experience in drilling, when 
it comes to public and worker health there is no reason that we 
should assume that BP has the expertise, the willingness to use 
its resources or incentives to really address the issues that 
are involved here.
    Now EPA is already taking steps to protect the health of 
workers in communities, as you mentioned in your opening 
remarks. You are collecting data, you are doing monitoring and 
surveillance, but are there some other ways that EPA is 
communicating about health risks to the public?
    Ms. Jackson. The primary means that we use are for those 
who have Internet access we put up information to help 
communities. It is a right to know. A basic tenet of 
environmental protection is that people have the right to know. 
We do that in conjunction with our partners and with the 
command.
    We also have put up a translation in Vietnamese. So that 
there is access to not everything but some information, 
particularly that related to human health.
    We continue to get data. We have had a series of public 
meetings, and we have been fortunate enough to be joined with 
our partners. Often, the Coast Guard, NOAA, Department of 
Interior, Fish and Wildlife are there to answer questions.
    Just as your particular issue we would normally refer that 
to OSHA. Dr. David Michaels I believe has been very adamant 
about the need for OSHA to stand up and be very available 
through the unified command for any questions related to work, 
specifically to worker health.
    Mrs. Capps. Thank you.
    I am assuming EPA is also translating--while you are 
translating literally to other languages, but as data is being 
collected, as this ongoing process occurs, you will use this. 
Do you use any other methods as well to keep the local 
communities and workers and volunteers apprised of new data as 
it comes along?
    Ms. Jackson. Oh, absolutely. We are trying everything we 
know to help the communities understand what we do. Just the 
other day when I was out there, we had NGOs who were 
particularly concerned about odor complaints ride along in our 
mobile lab so they can understand and tell us where they might 
want us to go to focus on information.
    It is a continual process, and it is one that we do under 
the direction of the Coast Guard. They have been very 
supportive of any efforts EPA makes to bring in and inform the 
local community.
    Of course, since I am from Louisiana at least and the Gulf 
Coast region for sure, that I think nothing could be more 
important.
    Mrs. Capps. And, also, to follow up even more, you 
mentioned OSHA and you talked about collaboration with the 
Coast Guard. Are there other agencies as well that should be 
involving in some of these public health responses.
    Ms. Jackson. Certainly when it comes to seafood safety, it 
is the Food and Drug Administration, along with any partnership 
with NOAA, because NOAA is collecting so much data out there.
    I believe either today or yesterday EPA was asked by NOAA 
to join some of their deep sea cruises. We generally don't do a 
lot of sampling out in the deep sea. That is NOAA's 
responsibility. But there is good cooperation there. And we are 
working very closely with our Federal partners to ensure that 
all data is getting up on the Web. EPA has a bit of experience 
in that regard as well.
    Mrs. Capps. You know, earlier this week, this full 
Committee on Energy and Commerce, we held a markup for a bill 
that will provide necessary health care to 9/11 responders--if 
you can believe this many years after that--who continue to 
face negative health consequences when their heroic work after 
the Twin Towers fell.
    Responders to this oil spill, including local shrimpers and 
fishermen and volunteers and community residents, shouldn't be 
choosing to save the life of the Gulf region, which they 
definitely want to participate in doing, while having the 
choice then to put their own health and lives at risk. And this 
time I hope we can, as I am encouraging to continue doing what 
you are doing and even expand it, all of these agencies here, 
that we don't find ourselves in the same position 10 years from 
now that we did before.
    Ms. Jackson. I thank you.
    I just want to acknowledge the Coast Guard's very strong 
precautionary action yesterday when there was the first sign of 
complaint. It is very warm down there. That oil is light crude, 
sweet light crude. It does volatilize, and it can have effects 
on folks, even folks in the Gulf. We think we are pretty tough 
as it is. And so I could not emphasize more strongly, although 
it is out of my lane per se, that proper protective equipment, 
erring on the side of precaution is extremely important for 
anybody down there.
    Mrs. Capps. I know that I have run out of time. If there 
were more time or maybe you can submit for the written record, 
Admiral Watson or any others that wish to submit some 
statements about this fact.
    Admiral Watson. Yes, ma'am. Thank you.
    I just want to emphasize that safety is the first thing 
that we discuss at every one of our meetings; and, of course, 
we are reactive immediately if we find there is a concern. I 
have been in personal discussions with Dr. Michaels, and OSHA 
is a very much a part of our team.
    Mrs. Capps. Thank you very much. I yield back.
    Mr. McNerney [presiding]. At this point, the chair 
recognizes the gentleman from Illinois, Mr. Shimkus.
    Mr. Shimkus. Mr. Chairman, I think Mr. Stearns. The order 
we had when we started with the opening statements is when the 
gavel drops by seniority, and he was here when the gavel 
dropped.
    Mr. McNerney. The chair recognizes Mr. Stearns.
    Mr. Stearns. And I thank the gentleman, Mr. Shimkus.
    Admiral Watson, recently, the press secretary for the 
President, Robert Gibbs, indicated, ``There's nothing that we 
think can and should be done that isn't being done, nothing.'' 
He was pretty emphatic about that. And I guess the question for 
you is, in your present position, do you think absolutely 
everything is being done that possibly could be done to clean 
up this oil spill?
    Admiral Watson. Sir, I was sent down there to do everything 
that could be done. My assignment was to be----
    Mr. Stearns. Oh, I understand your assignment, Admiral.
    Admiral Watson. I really feel like I have done my duty.
    Mr. Stearns. Have you done everything possible that could 
be done to clean this oil spill, in your best opinion?
    Admiral Watson. Personally and from my perspective inside 
the organization, yes, sir.
    Mr. Stearns. Now, ABC ran a news story yesterday in which 
they interviewed a lot of the small fishermen. They say, we 
have boats. We are ready to go out and skim off the oil to help 
out. Why aren't all those unemployed fishermen--why aren't you 
using a lot of their boats to help out?
    Admiral Watson. Sir, I think we have over 500 fishing 
vessels. I think the number is closer to 600. They are----
    Mr. Stearns. They showed boats after boats on ABC, and they 
interviewed these individuals.
    Admiral Watson. Well, I just know that we have accepted 
vessels of opportunity from all the fishing vessel communities. 
We have given them the training, the equipment, and we have 
deployed them, and they are being used to recover.
    Mr. Stearns. Well, you heard Ranking Member Barton indicate 
that Governor Jindal has asked for approval to put these oil 
spill booms out and hasn't got it. And he has also got partial 
approval for building the berms. Why wasn't that done earlier 
if you think everything has been done that has been done? Why 
haven't you given the approval for the Governor on the oil 
spill booms?
    Admiral Watson. Sir, on the berms, that is a tactic that 
hasn't been used before. We need to know----
    Mr. Stearns. No, let's take the first one, the booms. He 
has been asking that for some time.
    Admiral Watson. Oh, booms. There is 1.8 million feet of 
booms out. We have put booms down to the maximum level of 
effort possible, and there is----
    Mr. Stearns. He has indicated in a press conference 
yesterday, the Federal Government--he wants them to approve 
millions of feet of boom, and he is waiting for their approval, 
and he hasn't got it. This is the Governor. So you are saying 
you have approved everything and you are not going to approve 
more?
    Admiral Watson. We are still flowing booms in as fast as we 
can into the State of Louisiana.
    Mr. Stearns. OK, well, I am just telling you what the 
Governor says.
    Now it is also reported there are lots of countries who 
want to help out. They want to send their ships over here. They 
want to provide research, technical expertise, oil pumps, 
skimmers, wildlife treatment. All these countries have listed, 
and yet it doesn't appear to be--I mean, you have had Mexico, 
maybe one other country. Why haven't you accepted help and 
support and assistance from all these other countries? I think 
there were 15 countries that were cited.
    Admiral Watson. Yes, sir. I can't address each one of 
those, but we do have State Department in our organization, and 
we are using the presence of BP around the world to access 
those resources. We are flying Canadian aircraft. We are using 
booms from the Middle East and from Europe.
    Mr. Stearns. It was also reported that Holland has a ship 
and a mechanism to take up 80 percent of the oil by skimming 
it. Did you know about that?
    Admiral Watson. We do have----
    Mr. Stearns. Have you contacted Holland to see what the 
process is they have in place?
    Admiral Watson. We have a dedicated group of engineers that 
are working with proposals like that, sir. I can't speak to 
that specifically.
    Mr. Stearns. OK, it has been 5 weeks. It seems like from 
day 1 if you would had boats out there to take off the skim and 
oil pumps and skimmers, this expertise would have delayed 
hitting the shores of Louisiana. Don't you agree with that, 
that you should have had on day 1 somebody out there doing 
that?
    Admiral Watson. Sir, we responded on day 1 with everything 
that we had. This equipment takes time to flow in, and these 
novel things need to be evaluated before----
    Mr. Stearns. Well, how about day 21? Day 21, you did 
nothing. There was no skimmer boats out there. There was 
nothing being done. And I don't see any foreign countries out 
there that you have approved coming in. And, you know, the 
Governor now has for 2 weeks been asking for you to give 
waivers. Why didn't you do it earlier for the oil spill booms?
    Admiral Watson. We have a total of 1,500 vessels, sir. I am 
not sure which ones you are referring to that we don't have 
working.
    Mr. Stearns. Well, the first couple weeks you weren't out 
skimming the oil at the site. You weren't trying to contain the 
oil. The oil was--I was out there. I saw it. I was on a Coast 
Guard aircraft. It was flowing everywhere. And you could see it 
come up. It was emulsified orange. Everywhere you looked, you 
saw it. And there was--nobody was skimming it up, nothing. This 
was about 3 weeks ago.
    So for you to sit here and tell me, Admiral, that you have 
done everything possible and let this thing hit the Louisiana 
shore, you have to take some culpability here; and you have to 
stand up and say, we could have done more. You can't go with 
the administration that keeps saying, oh, yes, we have done 
everything possible. Because it is clear you haven't.
    Mr. McNerney. Thank you, Mr. Stearns.
    At this point, the chair recognizes himself for 5 minutes.
    First of all, I would like to ask if there are any known 
methods out there--maybe Mr. Salt can answer this or 
Administrator Jackson could answer this--that would be 
effective in protecting the marshes. Are building dirt walls 
effective or putting human hair booms? Is there anything out 
there that would be effective?
    Mr. Salt. Sir, I believe we are trying everything we know 
to try.
    Mr. McNerney. Well, I mean, is there any method that is 
known that would be effective, whether or not you are using it, 
whether or not you are deploying it? Getting oil, to prevent 
oil from coming ashore, is there anything out there that can 
prevent that?
    I know that the oil is dispersed in the water. It is not 
just on the surface. So it is a difficult problem. Is there any 
known technique or method that would be effective in this, in 
this situation?
    Mr. Salt. Sir, beyond what is being tried right now, no, 
sir, I don't know anything more.
    Mr. McNerney. Ms. Jackson.
    Ms. Jackson. Sir, as we heard the Admiral say, we are using 
all the methods that are typically used. I have almost every 
day someone who e-mails me with an idea of some sort. There 
have been so many that there was a technical group put together 
under the leadership of the command to try to evaluate them. It 
is very, very difficult, sir, to do science on the fly right 
when you are in the middle of something of this magnitude and 
not do harm. One of the concerns is that in our rush to want to 
do something we want to make sure we are not making the bad 
situation worse in the long term.
    Mr. McNerney. Thank you.
    Rear Admiral, looking in the mirror a little bit now, is 
there anything that the United States government could have 
done that would have been more effective, taking control of the 
administration of this, or any administrative or technical 
thing that we could have done that the United States government 
could have done that would have been more effective?
    Admiral Watson. My personal feeling is that once this 
manifests itself with all of that oil coming up onto the 
surface--we did have weather conditions that did provide--that 
did force us to retreat on occasion. I think that from what we 
could have done differently it could have been in the time 
since drilling has moved outward we could have changed our 
readiness and increased our planning factors for this kind of a 
spill. We have contingency plans. They are really based on 
worse-case scenarios that aren't as worse as this one is, and 
that would have potentially changed our resources that were 
available when the event occurred.
    Mr. McNerney. In your opinion, would it have been hurtful 
or more effective to take control of this from BP? In other 
words, my understanding is that BP is running the show with 
oversight of the Federal Government. Would it have been more 
effective for the Federal Government to take control and to 
give direction to the various players?
    Admiral Watson. Well, let me just explain the type of 
control that we have over BP.
    First of all, they are required to have a contingency plan. 
They are required to have oil spill response contractors and 
other contractors to respond to the type of incident that they 
might have. And then when the incident occurs, they have to 
become a part of the organization. If we find that they are 
nonresponsive, then we would begin to give them more direct 
orders. But in this particular case we have been working this 
response as a unified command, and we found that the resources 
that BP has been able to bring have been valuable, and there 
have been no circumstances that I have observed where they have 
not complied with the plan of the day for the oil spill 
response.
    Mr. McNerney. Thank you.
    I am going to yield my time back and recognize--is it your 
turn--the gentleman from Illinois, Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. I am not trying to 
manage time, but I appreciate that.
    Obviously, thank you all for coming. Again, we wouldn't 
wish this on anybody. This is what we have, and I know there is 
a lot of frustration. I think part of the frustration is we are 
the representatives of the people. I know the folks in 
Louisiana are frustrated. The whole country is really 
frustrated.
    With new technology today, we see every ``gee whiz dang'' 
solution that can save this thing, from putting straw on the 
thing and soaking it up--that was one that went around last 
week. And, you know, Kevin Costner is going down there to get 
his little whirlybird thing down there to help. People want to 
help. They see all these things.
    I think the other part of the frustration--you know, if I 
was Governor of Louisiana, I would just do it. I would just do 
it and suffer the consequences. The court of public opinion he 
wins by trying to save his marshes. I wouldn't wait for the 
Federal Government. But I am not the Governor of Louisiana, so 
I guess I don't have to make that call.
    Administrator Jackson, I said I would be very kind, and I 
am going to be. What is the name of dispersant that we are 
talking about?
    Ms. Jackson. COREXIT. There are two different formulations, 
COREXIT 9527A and 9500A.
    Mr. Shimkus. Are they both being used, or is one over the 
other?
    Ms. Jackson. Yes, they both have been used. I think the 
only one that is currently being used is 9500A.
    Mr. Shimkus. You mentioned some type of list. Can you 
explain for me that list? And the 9500, is that on that list?
    Ms. Jackson. 9500 is on the product schedule which is 
authorized and listed in the national contingency plan.
    Mr. Shimkus. So this 9500 is what is being used. The only 
kind of different thing about this is there has been approval 
for it to be dispersed deep, right at the spill.
    Ms. Jackson. Yes, the novel application is this injection 
right as the spill was coming up. That stopped yesterday, 
actually, as they initiated the top kill operation. I don't 
think it is happening right now.
    The other novel thing is the volume use. It is usually used 
over a shorter period of time. So there are certainly U.S. 
record volumes used here.
    Mr. Shimkus. And so then on this--so it is usually 
dispersed on surface, and this is new. And so could part of 
this--I give credit to Chairman Markey. This whole debate of 
how much is being spilled is very important. I sat through 
people taking pictures and trying to do the flow diagrams, and 
I had some thermal fluids at my military school that I 
attended.
    If we had a lower projection of what was being released and 
then this dispersant was being used volumetrically in 
proportion to what we thought it was, would that not make the 
case that that is why we have probably some more surface 
appearance versus, you know--could that have been a reason, you 
think?
    Ms. Jackson. I am not sure I understand the question.
    Certainly when you use a dispersant as I understand it at 
the surface you have to set your nozzles to a certain rate of 
application. And one of the important things is making sure you 
are not wasting it, if you will, accidentally spraying it or 
having it drift over open water. It is not going to do any 
good. And one of the big lessons that we will learn, frankly, 
on the fly here with this subsea application is maybe we found 
a tool that could be used in future, God forbid, accidents.
    Mr. Shimkus. Could be used positively.
    Ms. Jackson. Yes. If we continue to believe that this is a 
much more effective way to get at the problem, this means you 
can use less of the chemical. And we are seeing issues. Now the 
one thing that people are pointing out is that there is no data 
on the long-term fate of this material, this dispersed 
material, so we are going to----
    Mr. Shimkus. So we don't know if it is biodegradable or 
stuff.
    Ms. Jackson. It is biodegradable.
    Mr. Shimkus. Is there a time line for that?
    Ms. Jackson. There is a French study and some other work 
that has been done that says within a month it biodegrades. 
What is a little unusual is that is assuming surface 
application, and we are in 5,000 feet of water here.
    Mr. Shimkus. And you mentioned France. I guess the French 
use this or other countries use of this, especially use the 
9500 one. I mean, is that commonly used around the world?
    Ms. Jackson. Let me get the answer back to you on the 
record on that. There has been some back and forth about a 
British ban. The British don't use COREXIT in their rocky--in 
their shallower water, and they are testing it in deeper water.
    Mr. Shimkus. Again, thank you for all you do, all hands on 
deck. We have got to get this solved. Hopefully, we were 
successful today.
    I yield back my time. Thank you, Mr. Chairman.
    Mr. McNerney. Thank you, Mr. Shimkus.
    The chair recognizes the gentleman from Texas, Mr. Green.
    Mr. Green. Thank you, Mr. Chairman. I apologize for having 
to run in and out, but we also have other committees and 
issues. I appreciate our panel being here.
    I represent a very urban district in Houston. We have the 
Houston ship channel, and so we wouldn't be there without the 
Coast Guard. And needing dispersant--just recently, we had two 
ships collide in the upper channel, and we had the booms, and 
nothing on comparison of what is going on now. So our 
experience is in much smaller spills, and we are literally 
finding out what we can do on these huge spills, and we never 
had one before.
    In fact, a lot of the technology we have today--I was a 
State legislator in 1979 when the well exploded in the Bay of 
Campeche, and we saw oil on the Texas coast, and it was much 
more tragic than what we are seeing now. But, again, I don't 
want to see that or this or anything.
    I appreciate the panel being here. I know the Department of 
Interior left, and I had some concern about the--and I know the 
President just announced the expansion or the 6 months on 
drilling in deep water or floating rigs; and there are a lot of 
Members, including on this committee, who have some concern 
about the shallow water which is a thousand foot or less. So I 
have some concern to make sure that can continue. Because, 
actually, we need the natural gas safely produced.
    Let me talk about dispersants. Because, Madam 
Administrator, again, we are making history. We have never had 
to disperse this much, and we have never had the underwater 
plumes that are so deep, I guess. Because, again, a ship 
channel, even where it was at, it wasn't 45 foot. So it was 
very small compared to what we are experiencing.
    Correct? It is--from what I understand, it biodegrades 
rapidly and does not bioaccumulate. And does it not include any 
known carcinogens or endocrine disrupters? Ms. Jackson, is that 
information that you can share with us?
    Ms. Jackson. There is testing that I have asked my 
scientists to do. It will take about a week to look 
specifically at endocrine disrupters.
    Listen, it is a chemical, sir, so it has a toxicity to it. 
It is less toxic than oil, but it is--it has toxicity.
    Mr. Green. I can understand your response to Congressman 
Shimkus. You see the planes flying over and, you know, it is 
kind of like trying to put out a forest fire. Once you put the 
dispersant out, it is going in open water as well as water that 
has the plume or the oil on the surface.
    Are there any other alternatives other than COREXIT and the 
secondary one that can be used and what are the availability of 
alternatives other than that?
    Ms. Jackson. Sir, I believe there are 14 or 15 different 
dispersants listed on the national contingency plan product 
schedule. The way the area response plan reads, potentially any 
of them could have been used.
    The concern became that, as this thing has become a longer-
term release, whether or not the original decision to use 
COREXIT might not be looked at again, whether there was 
something less toxic out there. BP has not identified anything 
less toxic. My belief is that there is more science needed on 
that, and so we are going to do it.
    Mr. Green. Our concern is the secondary, you know, but is 
that particular dispersant--has it improved the situation of 
the oil spill in the Gulf of Mexico?
    Ms. Jackson. Sir, it is a tough tradeoff, but I believe it 
has been a useful tool. Again, as I understand it from the 
Coast Guard, the FOSC would rather use burning and booming. 
Surface dispersant application is really her last choice, 
because it is inefficient.
    The subsurface method certainly bears further study for 
potential options in the future. But I think we owe it to 
everyone--especially when I go down there and I talk to 
shrimpers and others, there is a lot of concern. And, right 
now, I can't give them all the answers they would like about 
whether or not this dispersant is in the water. So we are 
taking the samples. We have gotten some very, very limited 
water samples back; and so far we don't see any of the 
constituents from the dispersant in the water. But we will get 
another 60, 70 samples back in the next few days.
    Mr. Green. Any other panelist on the dispersants?
    Admiral Watson. Congressman, I would just add dispersants 
have been in our inventory to respond to oil spills for a long 
time, 20 years. We have never used this much, but over those 
years I think we have found them effective, and they have been 
effective in this particular spill particularly.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. McNerney. Thank you, Mr. Green.
    The votes have been called. There is about 12 minutes left, 
so I ask the remaining members to be mindful that there are 
three members that wish to speak.
    At this point, the chair recognizes the gentleman from 
Texas.
    Mr. Burgess. Thank you, Mr. Chairman.
    They will hold votes for us. This is important.
    Administrator Jackson, oil, is it biodegradable?
    Ms. Jackson. Yes, sir, oil does biodegrade. It takes a 
while.
    Mr. Burgess. By what action does it do that? Does it 
oxidize, does sunlight change it, or do bacteria digest it?
    Ms. Jackson. Bacteria under aerobic conditions digests oil, 
sir.
    Mr. Burgess. What research has been undertaken by EPA to 
investigate the ability to use normal occurring bacteria to 
deal with an oil spill?
    Ms. Jackson. There are products listed on the national 
contingency plan schedule that are--I forget the name for them, 
but they are considered to be aids to biodegradation. That is 
different than dispersants. So there is some work authorized 
under the NCP for the EPA to evaluate and potentially list them 
as tools that can be used in response.
    Mr. Burgess. Exxon Valdez, some people felt that some of 
the mitigation efforts were actually as harmful or more harmful 
to the shoreline than was the oil itself. Given that 
information, has EPA been actively engaged in any research with 
any university or academic arrangement to try to develop these 
bacterial digesters?
    Ms. Jackson. Well, EPA wouldn't necessarily develop them. 
That is the innovation and ingenuity of the American people, 
sir. But EPA does have a lab. I believe we partner with 
Environment Canada up in Nova Scotia to look at----
    Mr. Burgess. How many of these are you evaluating?
    Ms. Jackson. Sir, I don't have an answer for you on what we 
are evaluating right this second.
    What I mean to say, as part of our regulatory 
responsibilities, we would have to list these----
    Mr. Burgess. We have to go fast, because he has a quick 
gavel.
    We have been very fortunate since Exxon Valdez--and Mr. 
Green mentioned the Gulf of Campeche. We have been very 
fortunate with oil spills, but we have got a lot of activity in 
the Gulf. We have driven our exploration out to deeper and 
deeper levels because we put so many areas off limits and yet 
we still demanded the energy. So, with that in mind, would it 
have not been prudent for the Environmental Protection Agency 
to have opened this up, request for proposals, to have people 
bring in their products and understand better how to deal with 
these problems up front.
    Ms. Jackson. Well, I think EPA relied on the oil industry 
and, in this case, specifically BP, who said that this would 
not happen. So that is why we are----
    Mr. Burgess. That is a real troubling aspect. I realize we 
lost our Department of Interior person, and we fired the MMS 
person, but this application is--I mean, it is a scandal in and 
of itself, and it is not just EPA but from a regulatory 
standpoint. Yes, shame on BP for turning this in.
    A scenario for potential blowup of the well, which BP would 
expect to have the highest volume of liquid hydrocarbons, is 
not required for the operations proposed in this exploration 
plan. Well, that is bad judgment on BP's part, but the agency 
in charge of regulating and approving, it is really bad 
judgment on their part.
    It seems like the EPA really should be more forward leaning 
in this regard. We do have a lot of activity going on in the 
Gulf of Mexico. The President did outline a plan for other 
areas to be open for exploration. We have been very lucky not 
to have spills, but spills are going to happen. Maybe not of 
this magnitude again in our lifetimes, but spills are going to 
happen. And it does seem to be prudent that the EPA would take 
a forward-leaning role in this regard. The industry to be sure.
    Now the injection of this dispersant at 5,000 feet under 
water, whose idea was that?
    Ms. Jackson. The request to do the injection came from BP.
    And, sir, I just want to make sure--I know you know this, 
but many in the room may not realize that EPA does not review 
drilling applications. So I think you should get a response 
from them.
    Mr. Burgess. I would love it if they were here, but we were 
denied that opportunity, as you saw. They left before those of 
us on the lower ends of the dais got a chance to question, and 
they fired the other lady this morning. So that was unfortunate 
for us.
    It just seems like after all this time--we have heard it in 
this committee, and we have heard it on television, on Rachel 
Maddow last night, the anxiety of people because we have not 
developed these contingencies. And maybe it is not EPA's place 
to do that, but it seems like EPA would have an ongoing, 
forward-looking strategy to deal with spills as they occur.
    Let me ask you a question. Are we going to--is this going 
to eliminate deep water drilling in the Gulf? We have got a 6-
month moratorium the President proposed today. Is deep water 
drilling in the Gulf over?
    Ms. Jackson. Oh, I don't have a crystal ball, sir.
    Mr. Burgess. Is this the Three Mile Island for deep water 
drilling in the Gulf? No deep water drilling, no nuclear, with 
hydrologic fracturing prohibitions that are being--we heard in 
this committee just yesterday, are we going to have anything 
left as far as producing energy for the American people that is 
of an American origin? Are we going to lock everything off?
    Ms. Jackson. Sir, I don't have a crystal ball, but I would 
refer to what the President said today, which is that until he 
can assure this can be done safely--first, let's remember 11 
people died here and then that it can be done safely so that 
the States around the Gulf Coast, all of whom use it for 
varying purposes, including energy production, can feel certain 
that their interests are protected. I think he said he believes 
we need to have more time to make sure we understand exactly 
what happened here.
    Mr. Burgess. I don't disagree with that. If it is to be 
done safely, though, the applications must be followed to the 
letter.
    Mr. Markey [presiding]. We have to go back to Mr. Scalise. 
I give you 3 minutes, Mr. Scalise.
    Mr. Scalise. Thank you, Mr. Chairman. I will try to get in 
as much as we can.
    I know Mr. Barton talked about the chain of command. I have 
got a real interest in what that command chain of command 
really was. Because when I read the Oil Pollution Act it is 
very clear the President is the one who is directly responsible 
for ensuring effective and immediate removal of the discharge.
    For too long, especially in the first few weeks but even 
still today, our local officials are still being sent through 
BP to get approval for various things that they are trying to 
do to protect the marsh and the coast. And so I will throw it 
out to whoever will answer this question--I guess the Coast 
Guard, since technically we were told the Coast Guard is in 
charge. Why is BP still in charge of certain recovery 
operations? I can understand if they are dealing with the well, 
but why are they dealing with things that have nothing to do 
with the well?
    Admiral Watson. The Coast Guard Federal On-Scene 
Coordinator is responsible for the response, sir. And if there 
is any other activities that go on outside of that organization 
under the Federal On-Scene Coordinator, those things can be 
done; and the recourse for compensation for those is back to 
the responsible party. So I think we may be seeing some of 
those independent activities and when----
    Mr. Scalise. Well, let me be specific, because my time is 
short.
    What about boom, the boats that are supposed to lay out 
boom? We were told our local fishermen were going to be hired 
to go do that. Many fishermen say they have not gotten any 
involvement in this.
    This is what really irritated me. On Sunday in Jefferson 
Parish, the parish where I live, the Homeland Security chief 
told me that they actually went out and found 50 boats sitting 
idle at the dock that were contracted out to be laying boom. 
This is a day that oil is permeating into our marsh, and yet 
the boats that were employed to go put out boom were sitting 
idle at the dock. They went and commandeered a few of 
themselves to go put out the boom on their own. Why did you all 
let this happen?
    Admiral Watson. I can't explain that particular situation.
    Mr. Scalise. Who was in charge of that situation?
    Admiral Watson. We have a staging director.
    Mr. Scalise. Coast Guard? BP?
    Admiral Watson. This is a unified command, specifically----
    Mr. Scalise. Somebody is in charge. The President said 
today that he is in charge. Is the President in charge of boom?
    Admiral Watson. The President has put Admiral Allen in 
charge. Admiral Allen has Admiral Mary Landry report to him on 
a daily basis, twice daily.
    Mr. Scalise. So who signs the contract? I am trying to get 
an answer. I have got 30 seconds left. You are running my clock 
out.
    I want to know who was in charge of putting out the boom 
and who let those boats sit idle at the dock on Sunday of this 
past week when you had oil coming into our marsh? Who did it? 
Can you tell me?
    Admiral Watson. I can't tell you the specific person----
    Mr. Scalise. Nobody wants to accept the responsibility for 
this. You know why we are frustrated right now? We are seeing 
the passing of the buck. Who did it? Who let that happen?
    Admiral Watson. The person on the ground who was 
responsible for that----
    Mr. Scalise. Who is going to be held accountable? Give me a 
name. Give me a name.
    Admiral Watson. I don't know.
    Mr. Scalise. Who can give me that?
    Admiral Watson. Well, I can get back to you, sir, if I know 
the location.
    Mr. Scalise. Inexcusable.
    Let me move on then, because, again, that is inexcusable as 
an answer. That should not have happened. If the President was 
all hands on deck, that wouldn't have happened.
    Let's talk about the Governor's plan, and I will ask the 
Corps of Engineers, Mr. Salt. We are being told that what was 
approved that the President announced today was only 2 percent 
of Governor's plan that he submitted. And in fact if it was 
done 2 weeks ago they would have laid out already 10 miles of 
protected barrier in front of the marsh that is now inundated 
with oil. Why didn't the President get everybody in a room or 
did he get everybody in a room and say we are rolling up our 
sleeves and we are not leaving until this problem is solved 2 
weeks ago when this was submitted?
    Mr. Salt. Sir, we wouldn't agree with those numbers.
    Mr. Scalise. Was everybody brought in the room by the 
President to say let's solve the problem or did they let 2 
weeks go by where people went around--I have reports from the 
Corps and others where they are talking about doing an 
environmental study on this while the environment is being 
destroyed. That is ludicrous.
    Mr. Salt. Sir, all of this is under emergency protocols. I 
would be happy to talk to you more after the hearing, if you 
would like.
    Mr. Scalise. I want answers on this. Because this is going 
on right now. We are not talking about let's study this after 
the fact. This is happening right now. Sunday, the boats were 
sitting at the dock while oil was coming into the marsh. There 
is no excuse for that.
    I yield back.
    Mr. Markey. The gentleman's time has expired, and the 
gentleman did have 5 minutes.
    The gentlelady from Florida, I can just recognize her very 
briefly; and I apologize.
    Ms. Castor. Thank you, Mr. Chairman.
    Pictures of the oil from the BP disaster washing up in 
Louisiana are horrendous, but I am very concerned about the 
pollution that we cannot see. In Gulf waters, in places where 
marine life has been abundant, marine scientists are reporting 
today that they have detected a wide area of elevated levels of 
dissolved hydrocarbons throughout the water column. This 
follows on what the LSU pelican found a couple of weeks ago.
    The highest concentrations are in the recesses of the Gulf 
of Mexico about 35 kilometers northeast of the disaster site 
south of Mobile, Alabama. Part of this area is known as the De 
Soto Canyon, which a deep valley that cuts through the 
Continental Shelf south of the Florida panhandle. It is an 
upwelling of very nutrient-rich Gulf waters, where marine life 
is abundant and plentiful, our fisheries interact and produce 
enormous amounts of marine life. This pollution can't be seen 
from the surface, but it is a severe threat to habitat and 
marine life, nonetheless. It is going to get into the food web, 
our marine scientists say.
    I am very concerned that NOAA doesn't have the tools to do 
the monitoring. I think what I have heard from scientists is 
over the past decade are data gathering and monitoring 
capabilities have been severely degraded, and I know NOAA is 
relying on a lot of the university and academic research 
institutions.
    What are your plans to build back the capability to do this 
long-term data analysis that we are going to need? Do you 
understand the impact of this disaster? What is your plan for 
being able to monitor and survey the subsurface oils and 
impacts of the toxic nature of this disaster?
    Mr. Robinson. Thank you, Ms. Castor.
    As you know, we have been looking at both surface and 
subsurface oil. In fact, as you know, we are utilizing academic 
as well as our own resources in this effort, in particular the 
Weatherbird from the University of South Florida. We have seen 
from some of that data--from some of those monitoring data that 
indicate that part per million levels of oil are at the 
subsurface.
    Mr. Markey. To the gentlelady--and I apologize to her. 
There is no time left on the roll call on the House floor, and 
I apologize to you, but----
    Ms. Castor. Thank you, Mr. Chairman. I will look forward to 
visiting with NOAA and EPA.
    Mr. Markey. And I do apologize to her for that.
    I have members who sent a request that a statement from 
U.S. Travel Associates be included in the record.
    Without objection, so ordered.
    Mr. Burgess. Mr. Chairman, I would also ask unanimous 
consent that letters from Steve Scalise and myself to 
Lieutenant General Robert Antwerpen and to Barack Obama 
regarding allowing the Governor of Louisiana to build the sand 
berms be included in the record.
    I ask the record be held open for 5 days for written 
questions.
    Mr. Markey. Without objection, it will be included in the 
record.
    [The information appears at the conclusion of the hearing.]
    Mr. Markey. We thank all of you for being here. We know 
that you are very busy and thank you for your service to our 
country and the work you are doing in this very difficult 
circumstance. Thank you.
    [Whereupon, at 4:52 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHIC] [TIFF OMITTED] 76583A.046
    
    [GRAPHIC] [TIFF OMITTED] 76583A.047
    
    [GRAPHIC] [TIFF OMITTED] 76583A.048
    
    [GRAPHIC] [TIFF OMITTED] 76583A.049
    
    [GRAPHIC] [TIFF OMITTED] 76583A.050
    
    [GRAPHIC] [TIFF OMITTED] 76583A.051
    
    [GRAPHIC] [TIFF OMITTED] 76583A.052
    
    [GRAPHIC] [TIFF OMITTED] 76583A.053
    
    [GRAPHIC] [TIFF OMITTED] 76583A.054
    
    [GRAPHIC] [TIFF OMITTED] 76583A.055
    
    [GRAPHIC] [TIFF OMITTED] 76583A.056
    
    [GRAPHIC] [TIFF OMITTED] 76583A.057
    
    [GRAPHIC] [TIFF OMITTED] 76583A.058
    
    [GRAPHIC] [TIFF OMITTED] 76583A.059
    
    [GRAPHIC] [TIFF OMITTED] 76583A.060
    
    [GRAPHIC] [TIFF OMITTED] 76583A.061
    
    [GRAPHIC] [TIFF OMITTED] 76583A.062
    
    [GRAPHIC] [TIFF OMITTED] 76583A.063
    
    [GRAPHIC] [TIFF OMITTED] 76583A.064
    
    [GRAPHIC] [TIFF OMITTED] 76583A.065
    
    [GRAPHIC] [TIFF OMITTED] 76583A.066
    
    [GRAPHIC] [TIFF OMITTED] 76583A.067
    
    [GRAPHIC] [TIFF OMITTED] 76583A.068
    
    [GRAPHIC] [TIFF OMITTED] 76583A.069
    
    [GRAPHIC] [TIFF OMITTED] 76583A.070
    
    [GRAPHIC] [TIFF OMITTED] 76583A.071
    
    [GRAPHIC] [TIFF OMITTED] 76583A.072
    
    [GRAPHIC] [TIFF OMITTED] 76583A.073
    
    [GRAPHIC] [TIFF OMITTED] 76583A.074
    
    [GRAPHIC] [TIFF OMITTED] 76583A.075
    
    [GRAPHIC] [TIFF OMITTED] 76583A.076
    
    [GRAPHIC] [TIFF OMITTED] 76583A.077
    
    [GRAPHIC] [TIFF OMITTED] 76583A.078
    
    [GRAPHIC] [TIFF OMITTED] 76583A.079
    
    [GRAPHIC] [TIFF OMITTED] 76583A.080
    
    [GRAPHIC] [TIFF OMITTED] 76583A.081
    
    [GRAPHIC] [TIFF OMITTED] 76583A.082
    
    [GRAPHIC] [TIFF OMITTED] 76583A.083
    
    [GRAPHIC] [TIFF OMITTED] 76583A.084
    
    [GRAPHIC] [TIFF OMITTED] 76583A.085
    
    [GRAPHIC] [TIFF OMITTED] 76583A.086
    
    [GRAPHIC] [TIFF OMITTED] 76583A.087
    
    [GRAPHIC] [TIFF OMITTED] 76583A.088
    
    [GRAPHIC] [TIFF OMITTED] 76583A.089
    
    [GRAPHIC] [TIFF OMITTED] 76583A.090
    
    [GRAPHIC] [TIFF OMITTED] 76583A.091
    
    [GRAPHIC] [TIFF OMITTED] 76583A.092
    
    [GRAPHIC] [TIFF OMITTED] 76583A.093
    
    [GRAPHIC] [TIFF OMITTED] 76583A.094
    
    [GRAPHIC] [TIFF OMITTED] 76583A.095
    
    [GRAPHIC] [TIFF OMITTED] 76583A.096
    
    [GRAPHIC] [TIFF OMITTED] 76583A.097
    

</pre></body></html>
